a XIONHddV

March 26, 2020
ALD-149
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-1046
CRAIG SAUNDERS, Appellant
v.
SUPERINTENDENT ROCKVIEW SCI; ET AL.
(E.D. Pa. Civ. No. 09-cv-01916)
Present:

MCKEE, SHWARTZ and PHIPPS, Circuit Judges
Submitted are:
(1) Appellant’s a request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1); and
(2) Appellant’s motion for the appointment of counsel
in the above-captioned case.
Respectfully,

Clerk

________________________________ ORDER_________________________________
The foregoing request for a certificate of appealability is denied because jurists of
reason would not debate the District Court’s decision to deny Appellant’s motion seeking
relief under Federal Rule of Civil Procedure 60(b). Morris v. Horn, 187 F.3d 333, 339—
41 (3d Cir. 1999); Slack v. McDaniel. 529 U.S. 473, 484 (2000). To the extent that
Appellant’s motion was a true Rule 60(b) motion attacking a defect in his habeas
proceedings, see Gonzalez v. Crosby, 545 U.S. 524, 530—32-(2005), it was not filed
within a “reasonable time,” see Fed. R. Civ. P. 60(c)(1); Moolenar v. Gov’t of V.I., 822
F.2d 1342, 1348 (3d Cir. 1987) (holding that a Rule 60(b)(6) motion filed two years after
the judgment was not filed within a reasonable time). To the extent that Appellant sought
to relitigate the District Court’s previous resolution of his Batson claim, the motion was

an unauthorized second or successive habeas petition that the District Court lacked
jurisdiction to entertain. See Gonzalez. 545 U.S. at 530-32. Additionally, Appellant’s
request for appointment of counsel is denied. See Tabron v. Grace. 6 F.3d 147, 155 (3d
Cir. 1993).
S'.
By the Coprt,
s/PattY Shwartz
Circuit Judge
Dated: April 29, 2020
ARR/cc: CS;MCK;R^

V-

TrueCopy:°'i'js.iirv:>

? 1.::

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

1

O XIQN3ddV

CRAIG SAUNDERS v. FRANKLIN J. TENNIS, et al.
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF PENNSYLVANIA
2011 U.S. Dist. LEXIS 57328
CIVIL ACTION NO. 09-1916
May 26, 2011, Decided
May 26, 2011, Filed
Editorial Information: Subsequent History
Affirmed by Saunders v. Tennis. 483 Fed Appx. 738, 2012 U.S, App. LEXIS 10783 (3d Cir. Pa., 2012)
Editorial Information: Prior History
Saunders v. Tennis. 2010 U.S. Dist. LEXIS 146638 (E.D. Pa., Sept. 30, 2010)
For CRAIG SAUNDERS, Petitioner: PETER D. HARDY, POST &
SCHELL PC, PHILADELPHIA, PA.
For FRANKLIN J. TENNIS, SUPERINTENDENT, THE
DISTRICT ATTORNEY OF THE COUNTY OF PHILADELPHIA, THE ATTORNEY GENERAL
OF THE STATE OF PENNSYLVANIA, Respondents: SUSAN ELIZABETH AFFRONTI,
PHILA DISTRICT ATTYS OFFICE, PHILADELPHIA, PA; THOMAS W. DOLGENOS,
DISTRICT ATTORNEY'S OFFICE, PHILADELPHIA, PA.
Judges: Michael M. Baylson, United States District Judge.
Counsel

Opinion
Opinion by:

Michael M. Baylson
Opinion

MEMORANDUM
Baylson, J.
[■Introduction
On May 4, 2009, Craig Saunders filed a pro se petition for habeas corpus pursuant to 28 U.S.C. §
2254, naming as Respondent Franklin J. Tennis, Superintendent of Pennsylvania State Correctional
Institution at Rockview, and raising five grounds for relief (ECF No. 1):
1. Violation of Batson v. Kentucky. 476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d 69 (1986),
regarding the Commonwealth's use of peremptory strikes;
2. Insufficiency of the evidence to sustain conviction;
3. Violation of Confrontation Clause by improperly limiting cross-examination of expert;
4. Violation of right to be indicted by grand jury; and
5. Sentencing violation, pursuant to Blakely v. Washington, 542 U.S, 296, 124 S. Ct. 2531, 159 L.
Ed. 2d 403 (2004). 1
•r*

lyccases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved, Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

The petition was referred to Magistrate Judge Timothy R. Rice for a Report and Recommendation (R
& R) on June 10, 2009 (ECF No. 3). Finding that state court proceedings under the Pennsylvania Post
Conviction Relief Act ("PCRA"), 42 Pa. Cons. Stat. Ann. § 9541- 9546, had not terminated, Magistrate
Judge Rice issued an R & R recommending that the petition be dismissed without prejudice unless
Saunders were to affirmatively seek judicial resolution of his current habeas petition (ECF No. 4).
Saunders requested that he be allowed proceed on his exhausted claims (ECF No. 5), and this Court
ordered the case remanded to Magistrate Judge Rice for that purpose (ECF No. 6). The
Commonwealth filed a response to the petition on January 15, 2010 (ECF No. 16). On March 19,
2010, Magistrate Judge Rice granted Saunders's application to proceed in forma pauperis and
appointed counsel (ECF No. 20). On September 30, 2010, following a September 8, 2010 evidentiary
hearing on Saunders's Batson claim, Magistrate {2011 U.S. Dist. LEXIS 3}Judge Rice issued an R &
R that this petition for writ of habeas corpus be denied and finding no probable cause for a certificate
of appealability (ECF. No. 38).
II. Factual Background
Between September 7 and 30, 2004, the Honorable Renee Cardwell Hughes of the Philadelphia Court
of Common Pleas presided over a jury trial that resulted in Saunders's conviction of one count of
conspiracy to commit escape of a prisoner. Commonwealth v. Saunders, 2666 EDA 2006, at *1 (Pa.
Ct. Comm. PI. Sept. 13, 2007) (ECF No. 16-1). Saunders was tried along with co-defendants Kevin
Holmes and Reginald Nesmith. Id. at *2.
The Pennsylvania Superior Court outlined the facts of the case in its opinion affirming Saunders's
conviction on a nunc pro tunc appeal. Commonwealth v. Saunders, 2008 PA Super 60, 946 A.2d 776,
779 (Pa. Super. 2008). The Superior Court opinion relied largely on the facts as described in the
opinion by Judge Hughes denying Saunders's post-trial motions, which itself draws heavily from the
trial transcripts. See Saunders, 2666 EDA 2006.
The evidence at trial, taken in the light most favorable to the prosecution, showed that Saunders had
ongoing phone contact and visitations with a prisoner named Selwyn Brown, {2011 U.S. Dist. LEXIS
4}during which they used a code common to the "Five-Percent Nation" 2 to communicate and that
Saunders and Brown used this code to develop a plan for Brown to escape from prison.
The trial evidence showed that on July 2, 2001, while Brown appeared in Philadelphia Family Court, at
1801 Vine Street, witnesses alerted police to the presence of men with guns walking down 18th
Street. Jd.; Sept. 14, 2004 Trial Transcript at 62-63, 82. When the police arrived, they found four men
standing by a tan automobile at 18th and Wood Streets and a chase ensued. Id at 779-80; Sept. 22,
2004 Tr. at 61-62. The automobile was left running at 18th and Carlton Streets and was later found to
be registered to Brown. Id. at 780; Sept. 22, 2004 Tr. at 61-62, 126. At least one gun was retrieved at
the scene. Id; Sept. 20, 2004 {2011 U.S. Dist. LEXIS 5}Tr. at 55, 58; Sept. 22, 2004 Tr. at 20.
At trial, the prosecution called two experts. Daniel Olsen, supervising forensic examiner in the
Cryptanalysis and racketeering records unit for the Federal Bureau of Investigation, testified as an
expert in code deconstruction. Id. at 779. George Corbiscello, Senior Investigator for the Monmouth
County Sheriffs Office, testified as an expert on the Five-Percent Nation and its oral and written
communications, including on a form of communication called the "Supreme Alphabet." jd.; Sept. 21,
2004 Tr. at 113-55. Both experts translated the conversations between Saunders and Brown. Id.;
Sept. 20, 2004 Tr. at 244-65; Sept. 21, 2004 Tr. at 134-55. The conversations between Saunders and
Brown, as interpreted by expert testimony, revealed that Saunders had spoken with Brown in person
and on the telephone on multiple occasions and had promised Brown to assist in Brown's escape
from Family Court. Id; Sept. 15, 2004 Tr. at 31-32, 36, 51-52; Sept. 20, 2004 Tr. at 246-51; 268-727.

1yccases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

The plan called for a car to be waiting on 18th Street for Brown to exit Family Court and for men with
guns to confront the sheriffs, secure Brown, and escape in the waiting {2011 U.S. Dist. LEXIS 6}car.
jcL; Sept. 14, 2004 Tr. at 196-97.
On September 30, 2004, following his conviction by the jury on the conspiracy charge, Saunders was
sentenced to 3.5 to 7 years imprisonment. 3
III.Leqal Standards
Pursuant to the Anti-terrorism and Effective Death Penalty Act of 1996 ("AEDPA”), 28 U.S.C. §
2254(d), a federal court is (2011 U.S. Dist. LEXIS 7}precluded from granting habeas relief on any
claim "adjudicated on the merits" unless the state court's adjudication (1) "resulted in a decision that
was contrary to, or involved an unreasonable application of, clearly established federal law, as
determined by the Supreme Court of the United States"; or "was based on an unreasonable
determination of the facts in light of the evidence in the State court proceeding." 28 U.S.C. § 2254(d).
A federal court exercising habeas review "may not issue the writ simply because that court concludes
in its independent judgment that the relevant state-court decision applied clearly established federal
law erroneously or incorrectly." Williams v. Taylor, 529 U.S. 362,411, 120 S. Ct. 1495, 146 L. Ed. 2d
389 (2000). To grant the writ, the federal court must conclude that "the state court's application was
unreasonable." Williams v. Beard. 637 F.3d 195, 204 (3d Cir. 2011) (citing Renico v. Lett. 559 U.S.
766, 130 S. Ct. 1855, 1862, 176 L. Ed. 2d 678 (2010)).
In ruling on objections to the R & R of a United States Magistrate Judge, this Court reviews de novo
only those R & R findings to which a petitioner specifically objects. Nara v. Frank. 488 F.3d 187, 194
(3d Cir. 2007) (citing United States v. Peretz. 501 U.S. 923, 111 S. Ct. 2661, 115 L. Ed. 2d 808
(1991)); {2011 U.S. Dist. LEXIS 8}28 U.S.C. § 636(b)(1); see also Fed. R. Civ. P. 72. The district
court may accept, reject, or modify in whole or in part the Magistrate's findings, 28 U.S.C. § 636(b)(1).
Reliance on the findings of the Magistrate is permitted to the extent the district court deems proper.
United States v. Raddatz, 447 U.S. 667, 676, 100 S. Ct. 2406, 65 L. Ed. 2d 424 (1980).

IV. Discussion
A. Batson Challenge
Saunders, who is an African American male, argues that the Commonwealth violated his rights under
the Fourteenth Amendment by exercising its peremptory challenges on the basis of race and/or
gender in violation of Batson v. Kentucky, 476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d 69 (1986). In
Batson, the Supreme Court held that "deliberate or purposeful exclusion of African Americans from
jury service violates the Equal Protection clause." Williams. 637 F.3d at 205 (citing Batson, 476 U.S.
at 84). 4
Pursuant to Batson, the Court applies a three-step burden-shifting analysis to Saunders's claim. At
step one, "a defendant must make a prima facie showing that a peremptory challenge has been
exercised on the basis of race." Williams, 637 F.3d at 205 (citing Miller-El v. Cockrell, 537 U.S. 322,
340, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003)). {2011 U.S. Dist. LEXIS 10}lf a defendant
establishes a prima facie case, the burden shifts to the Commonwealth at step two to offer raceand/or gender-neutral bases for striking the juror in question. Id. Finally, "in light of the parties'
submissions, the trial court must determine whether the defendant has shown purposeful
discrimination." Id.
1 .Relevant Background
a.State Court Proceedings

lyccases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

The record reflects that the trial court conducted voir dire on September 9 and 10, 2004. The original
venire consisted of 25 individuals, 13 of whom were African American women. At the end of the
individual voir dire on September 10, 2004, Tr. at 162, the transcript states "(off the record)." Upon
resuming on the record, Judge Hughes reviewed the race and gender of each stricken juror and of the
ten jurors seated up to that point. At that time, the prosecutor, James Berardinelli, had used eight of
his nine peremptory strikes to remove eight African American women from the panel, jd. Ten jurors
had already been seated: four African American women, one white male, three white females, and
two African American males. Id. at 164-65. Defendants had, by that point, struck one white female,
one African American female, and five {2011 U.S. Dist. LEXIS 11}white males. Sept. 8, 2010 Tr. at
Ex. at R2.
Judge Hughes observed "what appeared to be patterns by both the defense and the Commonwealth"
regarding racial composition of jurors struck up to that point. Judge Hughes then said "let me know
how you wish to proceed." See R & R at 19; Sept. 9, 2004 Tr. at 165. Defense counsel then raised a
formal Batson challenge, stating concerns that "[a]ll of the Commonwealth's strikes have been Black
females." Id. The following exchange ensued between Judge Hughes and defense counsel:
Court: [Y]ou do understand that you cannot make out a Batson! challenge] if there are four African
American women on the panel. And that is the dominant racial demographic on the panel. . . .
Defense: We can't conclude by the utilization of all the strikes against Black females that the
Commonwealth is engaging in neutral methodology.
Court: I think that you cannot conclude that, counsel. If there was no African American females
seated on this panel, you can rightfully say the Commonwealth has stricken a particular class. But
given that there have been four African American females that the Commonwealth has agreed to
place on the panel, and at least one other African American {2011 U.S. Dist. LEXIS 12}female
the Commonwealth desires who was stricken by the Defense.
Accordingly, this panel is sufficient only as it relates to the Caucasian males, and no strikes have
been exercised by the defense. So at this point, I cannot deem that you have made out a Batson]]
claim. The Commonwealth is not required to respond, But your objection is noted for the record.
And the statistics are preserved, . . . given that a Batson!] challenge has been made. These
sheets - my sheets, which are the controlling sheets, will not be destroyed. They will in fact be an
exhibit in the quarter sessions file and sealed. There is no reason for them to be open to the
public. But they will be sealed for subsequent appellate review, should that be necessary. We're
all clear gentlemen?
Mr. Berdardinelli: Yes.
Mr. Server: Yes.
Mr. Harrison: Yes.
Mr. Nicholson: Yes.
Court: Anybody else need me to say anything to preserve the record?
Mr. Server: We all join.
Court: I but this issue is preserved for the future, [sic]
(A short recess was taken at this time.)Sept. 10, 2004 Tr. at 166-68. The prosecutor did not state
on the record, at that time, the basis for any of his strikes, nor did Judge Hughes or defense
counsel request that {2011 U.S. Dist. LEXIS 13}he do so. Defense counsel did not argue for any

lyccases

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

further rulings on the Batson issue. Although not reflected in the record, selection of the jury was
then completed and the trial proceeded.
According to the trial record, as reconstructed by Magistrate Judge Rice in the September 8, 2010
evidentiary hearing, and as discussed in detail below, an initial discussion on the Batson challenge
took place at the time the record states "off the record," in the judge's robing room, immediately after
completion of the voir dire of individual venire persons. Sept. 8, 2010 Tr. at 22; Sept. 9, 2004 Tr. at
162.
b.Direct Review
Saunders raised the Batson issue again on direct appeal. Judge Hughes issued an opinion, pursuant
to Pa. R. A. P. 1925(a), rejecting the post-trial motions filed by Saunders. Saunders, 2666 EDA 2006,
at *6. Rejecting the Batson claim a second time, Judge Hughes stated that
The Commonwealth did strike eight (8) African American females during the voir dire process and
provided a race neutral basis for each strike. The Commonwealth's position was further supported
by the fact that of the ten jurors chosen, four (4) were African American females. These four were
the dominant race and {2011 U.S. Dist. LEXIS 14}gender of the panel. Given that African
American females comprised the majority group on the panel and each strike exercised by the
Commonwealth was race neutral, the appellant has no viable claim of purposeful discrimination.
Appellant's Batson challenge fails as he cannot make out a prima facie case showing that the
circumstances created an inference that the prosecutor struck one or more prospective jurors on
the basis of race.Id (Emphasis added).
Saunders filed an untimely notice of appeal, which was dismissed. Saunders, 946 A.2d at 780.
Saunders's subsequent and timely PCRA petition resulted in the reinstatement of his direct appeal
rights, nunc pro tunc, and following a hearing held pursuant to Commonwealth v. Grazier. 552 Pa. 9,
713 A.2d 81 (1998), Saunders received permission to proceed pro se. Id.
The Superior Court affirmed the conviction. The Superior Court dealt at length with the Batson claim.
Initially, in footnote 8, the Superior Court reviewed the nature of the Batson objection made by defense
counsel at trial, and also summarized its understanding of the establishment of a prima facie case for
improper use of peremptory challenges. 946 A.2d at 782, citing and relying on a Pennsylvania {2011
U.S. Dist. LEXIS 15}Supreme Court decision, Commonwealth v. Washington, 592 Pa. 698, 927 A.2d
586, 609-610 (2007), and Johnson v. California. 545 U.S. 162, 125 S. Ct. 2410, 162 L. Ed. 2d 129
(2005). The Superior Court then cited from Judge Hughes's § 1925 opinion, and observed in footnote
10, that a portion of the discussion concerning Batson occurred off the record. The Superior Court
concluded that it did not find any abuse of discretion in the manner in which Judge Hughes had
handled the Batson issue. 5
Saunders filed a petition for allowance of appeal to the Pennsylvania Supreme Court, {2011 U.S. Dist.
LEXIS 16}which was denied on September 30, 2008. Commonwealth v. Saunders. 598 Pa. 774, 958
A.2d 1047 (Pa. 2008). 6
c.Habeas Petition
On June 11, 2010, Magistrate Judge Rice issued an opinion finding Saunders entitled to an
evidentiary hearing to address his claim that the Commonwealth used its peremptory challenges to
strike African-American women from the jury, brought pursuant to Batson (ECF No. 25). 7 At the
evidentiary hearing, held on September 8, 2010 (ECF Nos. 35, 36), Magistrate Judge Rice heard
testimony by the prosecutor and received a certificate submitted by the trial judge who presided over
Saunders's original trial.

lyccases

5

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

2.Evidentiary Hearing and Trial Judge Certificate
Prior to the evidentiary hearing, the Commonwealth moved pursuant to 28 U.S.C. § 2245 to {2011
U.S. Dist. LEXIS 17}admit a certificate by Judge Hughes in lieu of direct testimony. See Motion to
Admit Certificate by the Honorable Renee Cardwell Hughes; ECF No. 32. Saunders did not object to
the general admissibility of the certificate, only to certain portions of paragraphs 8 and 9, which
Saunders argued "stray[ed]" beyond the judge's recollection of factual matters. Sept. 8, 2010 Tr. at
4-5. The magistrate judge admitted the certificate "to the extent it set forth historical facts[,j" but struck
the first several sentences of paragraph 8 on the basis that they constituted Judge Hughes's
"speculation about trial counsel's strategy and motivations." R & R at 22.
a.§ 2245 Certificate
Judge Hughes stated in her certificate that she had a "specific recollection of the jury selection in the
Saunders case" and had reviewed the trial transcript, as well as her bench notes from voir dire. §
2245 Certificate at 3; ECF No. 32-1. The certificate provides a summary of the events leading up to
the defendants' objection that is consistent with the record as reflected in the description contained
above. Id. at
5-7. The certificate then stated Judge Hughes's perceptions that the defendants made
their objection {2011 U.S. Dist. LEXIS 18}as a trial tactic "not based on any objective behavior
exhibited by the prosecutor" and that it was "obvious that the pattern of strikes used by both sides,
considered in isolation could be construed as race-based." Id at H 8.
Judge Hughes's certificate continues:
Despite the fact that it was abundantly clear to me that each side had a specific selection strategy
which was in fact race neutral, at a sidebar which everyone believed was being recorded, and
unfortunately was not, I directed both the prosecution and the defense to explain their use of
strikes in the selection of this jury. ADA James Berardinelli gave unequivocal, race-neutral
explanations for each of his peremptory challenges.jd.
According to Judge Hughes, she considered "the facts and responses of counsel, including the fact
that the majority of the jurors selected at the time of the motion were African American and of that
number exactly half the jury was comprised of African American women" and concluded that "neither
side was engaging in race-based strikes, and that objecting counsel had failed to establish a prima
facie showing of discrimination." Id at 9.
The certificate went on to relate how, upon returning to the {2011 U.S. Dist. LEXIS 19}bench, Judge
Hughes "formally recited" the strike record and the racial composition of the panel, thus far, for the
benefit of the defendants. Id. at 10. This sentence accurately reflects the record. The certificate also
states, although these facts are not in the record, that Mr. Berardinelli then "asked to restate his
reasons for striking each juror" and Judge Hughes explained that "[hjaving determined that the
defense had not demonstrated a prima facie case," she determined it unnecessary for Mr. Berardinelli
to restate his reasons. Id, Judge Hughes confirmed that defense counsel did not ask for those
reasons to be "re-articulated" and stated that this occurred because all involved were "unaware that
the sidebar was not recorded." Id,
Finally, Judge Hughes's certificate states that her bench notes confirmed the facts as related in the
certificate and that she had provided her voir dire notes to the Commonwealth and Saunders's current
counsel. Judge Hughes concluded that neither her notes nor the Official Quarter Session's file could
be forwarded to this Court due to Saunders's pending PCRA proceeding, jd, at
11-12. Saunders's
counsel does not appear to have objected to proceeding {2011 U.S. Dist. LEXIS 20}without Judge
Hughes's bench notes within the official file. 8

lyccases

6

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

It is clear from the total state court record, including consideration of Judge Hughes's certificate, that
no counsel requested that Judge Hughes make specific findings as to step three. The legal
significance of this is discussed below.
b.Mr. Berardinelli's Testimony
On September 9, 2010, Magistrate Judge Rice held an evidentiary hearing on Saunders's Batson
claim. Mr. Berardinelli, the only witness, testified as to the jury selection process, the circumstances
surrounding the Batson objection, and the reasons for his strikes. Sept. 9, 2010 Tr. at 10-107.
Mr. Berardinelli testified that he and defense counsel engaged in a 10- to 15-minute discussion with
Judge Hughes in her robing room prior to the judge placing the ruling on the record, id. at 22-25,
92-93, 96-97. Mr. Berardinelli testified that, at that point, defense counsel raised the Batson objection,
each side recited explanations {2011 U.S. Dist. LEXIS 21 >for each strike, and Judge Hughes
reviewed the race and gender of each stricken and seated juror. Id. The discussion was not on the
record, nor was a court reporter present. Id at 94. Mr. Berardinelli stated that he attempted to place
his race-neutral explanations on the record when they returned to the courtroom, but Judge Hughes
stopped him because she had not found defense to have established a prima facie case. Jd Mr.
Berardinelli testified that "in hindsight," he should have placed his reasons on the record when Judge
Hughes later gave him opportunity to do so. Id at 102.
Mr. Berardinelli also testified as to his general criteria for picking and striking jurors. Id. at 31-34.
According to Berardinelli, he tends to select jurors originally from other parts of the state or country
than Philadelphia 9 as they tend to be prosecution-oriented, that he looks for older jurors and law
enforcement, utility, and transit workers; is likely to strike artists, social workers, and psychiatrists; and
also evaluates general demeanor and whether they or a family member have been involved with the
criminal justice system. Jd
Having had opportunity to review the notes of testimony and contemporaneous notes from jury
selection, id at 39-42, Mr. Berardinelli testified as to his recollections of each stricken juror, providing
the following race- and gender-neutral reasons for his strikes:
Juror R.J. had two nephews who had been arrested and she had attended the trial of one, although
she believed them to have both been treated fairly. As well, she exhibited an inability to understand
questions presented to during voir dire and on the written voir dire form; jd at 44-47;
Juror M.H. had a son who had been incarcerated for murder, said she did not believe the system
worked fairly in his case, and said she would expect defendants to have to put evidence forward
rather than remaining silent; jd at 50-51;
Juror J.G. had a degree in bible study and ministry, her demeanor was "too nice" to vote a guilty
verdict, and other jurors were preferable; jd at 54-57;
Juror J.W. had an uncle who she felt had been wrongly convicted of molesting a child, and she had a
(2011 U.S. Dist. LEXIS 23}number of relatives who were active members of the Nation of Islam and
Mr. Berardinelli was concerned that Nation of Islam and Five-Percenters have similar philosophies
and communicate through a similar type of code; jd at 57-59; and
Jurors C.J., C.W., L.C., and A.D. were all current or former social workers, a group which Mr.
Berardinelli described as "reflexively liberal," jd at 47-48, 52-54.
Mr. Berardinelli testified, as well, that he does not strike based on race or gender. Jd at 72.
3.Rulinq of Magistrate Judge Rice

lyccases

7

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Magistrate Judge Rice issued his R & R after the conclusion of the evidentiary hearing. He determined
that Judge Hughes had given inconsistent reasons for her rejection of the Batson claim, and rejected
her § 2245 certificate because it lacked "persuasive value and should be disregarded" as a result of
questionable statements of fact, as well as inaccurate statements of law. R & R at 23. Magistrate
Judge Rice further found that Judge Hughes had incorrectly overruled the Batson objection on the
basis that four African American women were seated on the panel, ending the Batson analysis at step
one, without the prosecution placing race- or gender-neutral reasons for {2011 U.S. Dist. LEXIS
24}the strikes on the record. R & R at 19-20. The magistrate judge found that Judge Hughes had
offered in her subsequent § 1925 opinion a "second - and new - basis" for rejecting Saunders's claim:
that the Commonwealth "provided a race neutral basis for each strike." R & R at 20-21. Magistrate
Judge Rice found that Judge Hughes, in her § 2245 certificate, had "recast her denial of Saunders'[s]
Batson challenge" by citing to "'unequivocal, race-neutral explanations' offered . . . during an off the
record sidebar, which was not previously mentioned." R & R at 23.
Having rejected the certificate of the trial judge as not credible and crediting only portions of Mr.
Berardinelli's testimony, Magistrate Judge Rice determined the decision at trial - rejecting the Batson
objection based the seating of four African American women on the panel - to be contrary to clearly
established Supreme Court precedent. R & R at 27. Magistrate Judge Rice concluded that the trial
judge's "alternate finding" that the prosecutor had provided race-neutral explanations for each strike,
articulated in the 1925(a) opinion and quoted by the Superior Court in its affirmance, was based on an
unreasonable determination {2011 U.S. Dist. LEXIS 25}of the facts in light of the evidence on the
record and, therefore, not entitled to deference. R & R at 28.
The magistrate judge then proceeded to a de novo Batson burden-shifting analysis, finding that
Saunders met his burden at step one by showing the Commonwealth's pattern of using its first eight
consecutive peremptory strikes to exclude African American women. R & R at 28. At step two, the
magistrate judge examined the explanations for his strikes offered by the prosecutor, see R & R at 26,
and found them to provide race- and gender-neutral bases for each strike. R & R at 29. The
magistrate judge found these reasons supported by the prosecutor’s notes and the juror
questionnaires. Despite "troubling . . . complications" regarding the handling of the case by the state
court, the magistrate judge found no evidence in the record that the prosecutor had a race- or
gender-based motivations for his strikes. R & R at 29.
It is very important to note that Saunders's counsel did not make any effort to expand the evidentiary
record before Magistrate Judge Rice. There are no reasons given in the record for the failure to call
Saunders's trial defense counsel, who, assuming they were available, {2011 U.S. Dist. LEXIS
26}could have provided testimony either corroborating or contradicting the recollection of Judge
Hughes and Assistant District Attorney Berardinelli.
4.Analvsis
a.Consideration of § 2245 Certificate
In addition to filing a separate response to Saunders's objections (ECF No. 48), the Commonwealth
has submitted a brief objecting to the portion of the magistrate judge's opinion concerning the
credibility of the trial judge. Resp. Obj. at 2 (ECF No. 46). The Commonwealth argues that the § 2245
certificate submitted by Judge Hughes is entitled to deference. Id. at 10. In the spirit of "federalism and
comity," the Commonwealth requests that this Court decline to adopt that portion of the R & R. Id. at
11. The undersigned has carefully reviewed Magistrate Judge Rice's reasons for his largely
discrediting and not giving any weight to the certificate by Judge Hughes, and respectfully disagrees
with this conclusion for the following reasons.

1yccases

8

© 2020 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Section 2245 states that "[o]n the hearing of an application for a writ of habeas corpus to inquire into
the legality of the detention of a person pursuant to a judgment the certificate of the judge who
presided at the trial resulting in the judgment, setting forth {2011 U.S. Dist. LEXIS 27}the facts
occurring at the trial, shall be admissible in evidence. Copies of the certificate shall be filed with the
court in which the application is pending and in the court in which the trial took place." 28 U.S.C. §
2245.
One obvious purpose of § 2245 is to allow a federal court to rely on a state court judicial officer with
knowledge of the state court proceedings, usually the trial judge, for recollection of facts not appearing
on the record. As in this case, reconstruction of the state court record is sometimes difficult or
impossible due to missing transcripts or briefs, or because arguments, discussions, or testimony
occurred off the record. In such a case, reconstruction of the record becomes necessary for the
federal district court to rule in accordance with the provisions of § 2254.
i. Precedents on § 2245
There are few precedential appellate decisions addressing the standard of review for a certificate
submitted to the district court in a habeas proceeding pursuant to 28 U.S.C. § 2245. The Third Circuit
last discussed this provision of the habeas statute in U. S. ex rel. Fox v. Maroney, 385 F.2d 839 (3d
Cir. 1967), expressing favor for "every possible utilization of this {2011 U.S. Dist. LEXIS 28}section to
facilitate the disposition of these cases." Id. at 840. The Third Circuit instructed that a certificate be
made part of the record prior to an evidentiary hearing because, otherwise, "evidence might be
entered into the record without any opportunity afforded the petitioner to challenge its credibility." Id.
(holding the district court erred for receiving a letter from a trial judge "explaining his version of the
relevant events" because the letter was received after the evidentiary hearing).
Bassette v. Thompson, 915 F.2d 932 (4th Cir. 1990), determined that a state court's findings of fact
submitted in a § 2245 certificate should be "presumed to be correct under 28 U.S.C. § 2254(c)."
Nonetheless, in Bell v. Jarvis, 198 F.3d 432, 441 (4th Cir. 1999), apparently the only circuit court case
construing § 2245 post-AEDPA, the Fourth Circuit later counseled against allowing "posttrial
assertions [to] satisfy the deficiencies in the trial court’s record.'" Id. at 441 (concluding that "findings of
fact" provided in the certificate on the basis for closure of the courtroom during trial "submitted . . . four
years after trial" could not "conclusively justify] closure" where Waller required {2011 U.S. Dist.
LEXIS 29}adequate findings on the record) (citing Waller v. Georgia, 467 U.S. 39, 49 n.8, 104 S. Ct.
2210, 81 L. Ed. 2d 31 (1984)). The Fourth Circuit has also rejected a certificate where the trial judge's
statements were too equivocal, see e.g., Strader v. Troy, 571 F.2d 1263 (4th Cir. 1978), while the
Sixth Circuit declined to credit a certificate the court found to be at odds with the trial record. Wang v.
Withworth, 811 F.2d 952, 957 (6th Cir.), cert, denied, 481 U.S. 1051, 107 S. Ct. 2185, 95 L. Ed. 2d
842 (1987).
In Weidner v. Thieret, 932 F.2d 626, 632 (7th Cir. 1991), the Seventh Circuit indicated a need to
approach a § 2245 certificate with scrutiny when the certificate "involve[s] inquiries into the mental
processes of state trial court judges," not simply fact finding. The court noted that, while the statute
allows for certificates elaborating on "facts occurring at trial," courts have construed this phrase
broadly, to include "the trial judge's state of mind with respect to a particular issue at a particular time
at trial." Id. (citing Bassette, 915 F.2d at 939; Gray v. Estelle, 574 F.2d 209 (5th Cir. 1978)).
Recognizing concerns with "human memory and cognition," the Seventh Circuit concluded that
"recourse to the testimony of a state trial judge {2011 U.S. Dist. LEXIS 30}concerning the mental
processes that underlay [a] ruling should be had only” where those reasons "are wholly unavailable
from the record." Id. at 633 (citing Washington v. Strickland, 693 F.2d 1243, 1262-63 (5th Cir. Unit B
1982) (en banc ), rev'd on other grounds, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984)).

1yccases

9

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

"Even then, the certifications or affidavits must be carefully evaluated to determine if they are
consistent with relevant record evidence." 932 F.2d at 633 (concluding that there was no error in
instructing the district court to allow an affidavit from the state trial judge and noting that none of the
trial judge's findings were "contradicted by the testimony of witnesses at the motion to suppress").
ii.Reasons for Rejecting Magistrate Judge Rice's Conclusion
In light of the mandate set forth in AEDPA that "a determination of a factual issue made by a State
court shall be presumed to be correct," 28 U.S.C. § 2254(e)(1), deference must be given the factual
findings put forth by a state trial judge. In making his credibility findings regarding Judge Hughes's §
2245 certificate, Magistrate Judge Rice did not make any reference to the presumption of correctness
mandated by § 2254(e)(1).
This Court will thus {2011 U.S. Dist. LEXIS 31}presume correct the factual findings contained within a
§ 2245 certificate "if they are consistent with relevant record evidence" in all material respects.
Weidner, 932 F.2d at 633.
Like any state officer elected or appointed into office and sworn to uphold the law, the state court trial
judge has a duty to provide to this Court a truthful and accurate statement of the facts, as recollected,
and this Court must and will presume that a state court trial judge is acting in accordance with that
duty. 10 This Court has found no precedent that warrants a federal judicial officer discrediting such a
factual certification, as Magistrate Judge Rice has appeared to do.
In this case, this Court concludes, with great respect for Magistrate Judge Rice, that he did not accord
the requisite (2011 U.S. Dist. LEXIS 33}deference required under § 2245. First, there is no material
discrepancy between Judge Hughes's § 1925 opinion and her § 2245 certificate. The former makes a
specific factual statement "each strike exercised by the Commonwealth was race-neutral" and the
latter repeats the same factual findings. Certificate at U 8, last sentence.
Second, Mr. Berardinelli's testimony corroborates the statements in Judge Hughes's certificate in all
material respects. Magistrate Judge Rice discredited a portion of Mr. Berardinelli's testimony
concerning the details of the off the record conversation solely because of (1) discrepancies between
his testimony and Judge Hughes’s certificate regarding whether the parties believed the conversation
was being recorded and (2) his conclusion it was inconceivable that the off the record conversation
provided opportunity for Mr. Berardinelli to give Judge Hughes "the type of detailed justifications" for
each strike that he offered in his evidentiary hearing testimony. R & R at 24-25. This Court finds the
issue of whether any of the parties believed the sidebar conversation "was being recorded" largely
irrelevant to the merits of Saunders's Batson claim, and also disagrees {2011 U.S. Dist. LEXIS
34}that the discrepancies noted above required rejection of the facts asserted, in the absence of a
specific finding that Mr. Berardinelli was not credible. Indeed, Magistrate Judge Rice largely relies on
Mr. Berardinelli's testimony in recommending denial of Saunders's Batson claim.
Thus, there is nothing in the record to contradict Judge Hughes's statement that Mr. Berardinelli gave
"unequivocal, race neutral explanations for each of his peremptory challenges" in the off the record
conversation. § 2245 Certificate at |j 8. Neither party contests that an off the record conversation
occurred in which defense counsel raised the Batson objection. The occurrence of an off the record
discussion is supported by the trial transcript. See Sept. 10, 2004 Tr. at 162; Habeas Pet. at 14.
Third, Saunders has offered no independent evidence to refute the certificate by Judge Hughes or Mr.
Berardinelli's testimony. As stated above, Saunders has provided no showing as to why he did not call
at Magistrate Judge Rice's evidentiary hearing any of the three defense attorneys present at trial.
Lastly, the statement by Judge Hughes that she relied on her notes was not credited by Magistrate
lyccases

10

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Judge Rice, but deserves {2011 U.S. Dist. LEXIS 35}credit. There is no basis in the record to
discredit this factual statement. Judge Hughes stated at trial that she would retain her notes. As the
Seventh Circuit recognized in Weidner. a state trial judge's recollection is subject to the limits of
"human memory and cognition" in recalling events that occurred six years prior, 932 F.2d at 633. The
Court does not find it improper that Judge Hughes refreshed her recollection in reconstructing the
record.
Thus, this Court declines to adopt the findings of Magistrate Judge Rice as to the credibility of the §
2245 certificate submitted by Judge Hughes and will give deference to the facts offered by Judge
Hughes in the certificate. To the extent Magistrate Judge Rice and this Court are entitled to rely on the
state court record, Saunders failed to present "clear and convincing evidence" to contradict the state
court factual findings. See 28 U.S.C. § 2254(e)(1).
^Consideration of Batson
This Court will proceed to review the discussion of Saunders's Batson claim within Magistrate Judge
Rice's R & R, but will do so giving full credit to Judge Hughes's certificate and Mr. Berardinelli's
testimony. 11
i.Step One: Prima Facie Case
This Court agrees with Magistrate Judge Rice that Judge Hughes incorrectly interpreted Batson at
trial. As the Third Circuit stated in Brinson v. Vaughn, 398 F.3d 225 (3d Cir. 2005), Batson was
"designed to ensure that a State does not use peremptory challenges to remove any black juror
because of his race" and a decision to accept certain African American jurors "does {2011 U.S. Dist.
LEXIS 37}not cure discrimination against others." Id. at 233 (quoting Batson. 476 U.S. at 99 n. 22).
The requisites for a prima facie Batson challenge, as stated by Judge Hughes at trial, in her
subsequent § 1925 opinion, and § 2245 certificate, were "contrary to . . . clearly established federal
law, as determined by the Supreme Court of the United States." § 2254(d)(1). 12 However, an
incorrect legal interpretation by the state trial court judge is not grounds for discrediting her factual
recollections of events not appearing in the record, or her factual findings based on her understanding
of what occurred in her court.
A defendant establishes a prima facie case at step one by demonstrating that "the totality of the
relevant facts gives rise to an inference of discriminatory purpose." Williams v. Beard, 637 F.3d 195,
at 214 (2011) (citing Johnson. 545 U.S. at 168). In Batson, the Supreme Court identified two {2011
U.S. Dist. LEXIS 38}examples of circumstances relevant to the step one totality inquiry. Id. First, a
defendant may "proffer evidence that the government exercised a 'pattern of strikes against black
jurors included in the particular venire, [which] might [then] give rise to an inference of discrimination."
Id. (citing Batson. 476 U.S. at 97). Second, the "prosecutor's questions and statements during voir
dire examination and in exercising his challenges may support or refute an inference of discriminatory
purpose." Id. The Third Circuit has concluded that "[sjtatistical evidence may be sufficient by itself to
make out a prima facie case of racial discrimination," Id. (citing Jones v. Ryan, 987 F.2d 960, 971 (3d
Cir. 1993)! Overton v. Newton. 295 F.3d 270, 278 n. 9 (2d Cir. 2002)), "in the absence of any
circumstance (such as a venire composed almost entirely of African Americans) that might provide an
innocent explanation." Brinson, 398 F.3d at 234-35.
In Williams, the Third Circuit found the strike rate to have exceeded 85%, determining that "in a venire
that was less than 40% black, it [was] hardly a leap to conclude that a strike rate of 87.5% raise[d] an
inference of discrimination." 637 F.3d at 215; {2011 U.S. Dist. LEXIS 39)fcitina Holloway v. Horn. 355
F.3d 707, 722 (3d Cir. 2004) (having "little difficulty" finding a prima facie case where prosecutor used
eleven of twelve strikes against African American venirepersons); Brinson. 398 F.3d at 234-35 (finding

lyccases

11

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

prima facie case where Commonwealth used thirteen of fourteen strikes against African Americans)).
Although finding the strike rate sufficient to establish a prima facie case, the Williams Court further
concluded that a disparity between acceptance rates of African American and white jurors also raised
an inference of discrimination. 637 F.3d at 215 (contrasting an acceptance rate of 26.3%, accepting 5
of 19 African jurors, with an acceptance rate 90%, accepting 19 of 21 white jurors) (citing Bond v.
Beard. 539 F.3d 256, 270 (3d Cir. 2008)).
In this case, the record shows that the Commonwealth had used eight consecutive peremptory strikes
against African American women by the time that defendants made their Batson objection. This Court
concurs with the conclusion of Magistrate Judge Rice that the Commonwealth's pattern of strikes is
"strong enough to suggest an intention of keeping [African American women] off the jury." Holloway,
355 F.3d at 722; see {2011 U.S. Dist. LEXIS 40}R & R at 28. In addition, the record shows that the
Commonwealth accepted 5 of 13 African American women or 38%, in contrast to accepting 10 of 10
white venirepersons, contributing to the inference of discrimination. Williams. 637 F.3d at 215.
Therefore, this Court adopts the conclusion of Magistrate Judge Rice that clearly established
Supreme Court precedent under Batson obligated the state court to find a prima face case and to
require the prosecutor to state the reasons for his strikes and to analyze those reasons under step two
of the Batson analysis.
ii.Step Two: Commonwealth's Evidentiary Burden
At step two, the Commonwealth must satisfy its burden by "presenting a comprehensible reason" for
each of the challenged strikes. Bond, 539 F.3d at 264. There is no requirement that the reason be
'"persuasive or even plausible' so long as the reason is not inherently discriminatory." [d, (citing Rice v.
Collins. 546 U.S. 333, 338, 126 S. Ct. 969, 163 L. Ed. 2d 824 (2006)).
Notwithstanding the trial court's identification of the incorrect legal standard at step one, having found
the § 2245 certificate to be credible, this Court concludes that Judge Hughes did, in fact, find the
prosecutor identified race-neutral reasons for {2011 U.S. Dist. LEXIS 41}his strikes, as stated in her §
2245 certificate and § 1925 opinion. This Court has also concluded that Mr. Berardinelli's testimony
corroborates Judge Hughes's recollection in large part. Thus, this Court does not adopt the portion of
Magistrate Judge Rice's opinion concluding that Judge Hughes failed to perform step two of the
Batson analysis. See R & R at 28. If Magistrate Judge Rice had credited Judge Hughes's certificate,
for the reasons stated above, it is likely that Magistrate Judge Rice would have likewise concluded
that Judge Hughes adequately performed step two. 13
Based on the totality of the record, the Court adopts Magistrate Judge Rice’s determination that the
Commonwealth was able to demonstrate a race- and gender-neutral basis for each of the eight
peremptory strikes through Mr. Berardinelli's testimony, which {2011 U.S. Dist. LEXIS 42}was
corroborated by both the individual voir dire questionnaires and Mr. Berardinelli's contemporaneous
jury selection notes. R & R at 29 (citing Sept. 8, 2010 Tr. 44-62; Exs. P1-P6; Ex. R3).
iii.Step Three: Analysis of Motivation
A trial court may not simply stop at step two but, instead, "must conduct an analysis of the proffered
reason for the strike under step three to determine if the reason the prosecutor offers is merely a
pretext designed to mask the improper consideration of race to exclude jurors." Coombs v.
Diquqlielmo. 616 F.3d 255, 262 n.5 (3d Cir. 2010) (citing Johnson v. California, 545 U.S. 162, 171,
125 S. Ct. 2410, 162 L. Ed. 2d 129 (2005)); Bond 539 F.3d at 265 (concluding, consistent with
Coombs, that, when a defendant establishes a prima facie case, a trial judge must reach both steps
two and three). The Third Circuit has interpreted the "'adjudication on the merits' language" of §
2254(d) "to mean that 'when, although properly preserved by the defendant, the state court has not
lyccases

12

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

reached the merits of the claim thereafter presented to a federal habeas court, the deferential
standards provided by AEDPA ... do not apply." Coombs. 616 F.3d at 260 (citing 28 U.S.C. §
2254(d)(8); Holloway. 355 F.3d at 719)).
At {2011 U.S. Dist. LEXIS 43}the third and final step of the Batson analysis, the trial court must
evaluate '"the persuasiveness of the justification proffered by the prosecutor." Bond, 539 F.3d at 264
(citing Rice. 546 U.S. at 538). The opponent of the strike carries the "ultimate burden of persuasion"
and must show that "it is more likely than not that the prosecutor struck at least one juror because of
race." Bond. 539 F.3d at 264 (citing Wilson v. Beard. 426 F.3d 653, 670 (3d Cir. 2005)). At this step,
the trial court must "make a finding regarding the prosecutor's motivations," Id. (citing Bronshtein v.
Horn. 404 F.3d 700, 723 (3d Cir. 2005)), "addressing] and evaluating] all evidence introduced by
each side (including all evidence introduced at the first and second steps) that tends to show that race
was or was not the real reason" behind the challenged strikes. Hardcastle. 368 F.3d at 259 (quoting
Riley v. Taylor. 277 F.3d 261, 277-78 (3d Cir. 2001) (en banc)).
The Court must focus "upon the prosecutor's subjective motivation, which ideally includes an
assessment of the demeanor and credibility of the various voir dire participants." Williams. 637 F.3d at
216. A comparative analysis between stricken and {2011 U.S. Dist. LEXIS 44}accepted jurors "is
relevant to determining whether the prosecution's asserted justification for striking the black juror is
pretextual." ]d. (quoting Riley, 277 F.3d at 282). The state court should consider "how reasonable, or
how improbable, the explanations are; and . . . whether the proffered rationale has some basis in
accepted trial strategy." Miller-El. 537 U.S. at 338-39.
This Court notes the Third Circuit's exhaustive analysis of the Batson issue in the recent case of
Williams v. Beard, supra, which affirmed the undersigned's analysis of Batson. In that case, the state
trial court, in a PCRA hearing, had allowed an thorough evidentiary hearing on Batson issues, but the
petitioner had then attempted, in this Court, to take discovery and have another evidentiary hearing.
The undersigned denied these requests, but engaged in a full-fledged Batson review, consisting of
extensive analyses of steps one, two and three under Batson. The undersigned concluded that the
state court record had established non-race-based reasons for the exercise of peremptory challenges
by the prosecutor, a conclusion that was affirmed by the Third Circuit.
In the recent Third Circuit case of Bond v. Beard, 539 F.3d 256 (3d Cir. 2008), {2011 U.S. Dist. LEXIS
45}the Third Circuit thoroughly discussed the third step under Batson. Initially, the court stated, "third,
the court must then determine whether the defendant has carried his burden of proving purposeful
discrimination. This final step involves evaluating 'the persuasiveness of the justifications' proffered by
the prosecutor, but 'the ultimate burden of persuasion rests with, and never shifts from, the opponent
of the strike.'" Id. at 264 (quoting Rice v. Collins, 546 U.S. 333, 338, 126 S. Ct. 969, 163 L. Ed. 2d 824
(2006)).
The Third Circuit then determined to apply the deferential AEDPA standard, which depends on
whether the state courts reached the third part of the Batson analysis and resolved it on the
merits. If the state courts performed a step-three analysis and made a finding about the
prosecutor's intent, that finding is presumed correct, see 28 U.S.C. § 2254(e)(1), and Bond is
entitled to relief only if (1) the state court decision was "contrary to," or involved an "unreasonable
application" of, Supreme Court precedent, id. § 2254(d)(1); or the finding was unreasonable in
light record before the state court, id. § 2254(d)(2); or petitioner rebutted the finding with "clear
and convincing evidence" in the district {2011 U.S. Dist. LEXIS 46}court.Bond, 539 F.3d at 264.
However, if the state court did not make a step three finding, then the federal court should not
apply AEDPA deference and must proceed de novo. Id.

1yccases

13

© 2020 Matlhew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is sub ject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Based on the Bond holding and the state court record, this Court will determine that a step three
analysis was made. However, alternatively, this Court will also make a de novo review, as did
Magistrate Judge Rice.
A. Deferential Review
Bond teaches that the step three analysis does not have to contain specific words or even specific
findings of fact. In Bond, the court affirmed a ruling by the district court that applied the deferential
standard, even though the language used in the state court was not precise and the state courts
"repeatedly failed to identify the three steps of the Batson analysis explicitly." See 539 F.3d at 268-69.
The Third Circuit found that the record gave "serious cause for concern that the state courts did not
reach the third step of the Batson analysis[,]" based in part on a "troubling" statement by the trial court
"that it was 'not going to try and get into the prosecutor's mind' and suggesting] that it only needed
'some objective statement that's racially neutral.'" id. at 268. The {2011 U.S. Dist. LEXIS 47}Third
Circuit found that statement "to indicate that the trial court believed that it could stop after the
prosecutor satisfied the second step of the Batson analysis by stating a race-neutral explanation for a
strike" and the voir dire transcript did not clarify whether "the trial court or the Pennsylvania Supreme
Court believed that the prosecutor truly had acted in a race-neutral fashion (satisfying step three of the
Batson analysis), or merely that the stated explanations were race-neutral (at step two)." Id.
However, upon review of the state court record, the Third Circuit concluded that both the trial court
and the Pennsylvania Supreme Court had, in fact, "reached the third step of the Batson analysis and
resolved it in favor of the Commonwealth." Id. As to the trial court's Batson analysis, the Third Circuit
concluded as follows:
The trial court may have stated its resolution of the Batson analysis inartfully during voir dire, but
its order denying post-trial motions shows that it reached Batson's third step. It wrote: "Reviewing
the totality of the circumstances there is no showing of intentional discrimination by the prosecutor
in the jury selection process and defendants are (2011 U.S. Dist. LEXIS 48}not entitled to a new
trial on that basis." The reference to a "showing of intentional discrimination" puts this conclusion
within step three of the Batson analysis. Here, the trial court does more than conclude that the
prosecutor offered a race-neutral explanation for a strike; it concludes that Bond did not meet his
burden of showing that purposeful racial discrimination, not the proffered explanation, actually
motivated the prosecutor's conduct. This step-three conclusion indicates that the trial court indeed
did understand the steps of a Batson analysis.Icf at 268-69 (internal citations omitted).
The Third Circuit determined that "the Pennsylvania Supreme Court essentially incorporated the
reasoning of the trial court" regarding step three, "[b]y ’describing] the trial court as accepting the
prosecutor's explanations as 'legitimate and race neutral,' and referred to the trial court’s findings 'as
to the legitimacy of the race neutral responses offered in this case.'" Id. at 269. The Third Circuit found
that had the Pennsylvania Supreme Court "simply inquired into the existence of 'race neutral'
explanations or responses," its analysis would have concluded at step two. Id {2011 U.S. Dist. LEXIS
49}lnstead,
The emphasis on legitimacy demonstrates that the Supreme Court considered the third step of
the Batson analysis. But it also described the legitimacy of those "race neutral" explanations. It
considered, in other words, whether the prosecutor had told the truth when he offered race-neutral
explanations. It concluded that he had done so. This amounts to a determination on the merits at
the third step of the Batson analysis.]d As a result, the Third Circuit held that the deferential
AEDPA standard of review applied to the state court rulings, ]d (citing Taylor v. Horn, 504 F.3d
416, 433 (3d Cir.2007)).

lyccases

14

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Applying the Bond standard to the present state court record, including the § 2245 certificate (although
not including Mr. Berardinelli's testimony), this Court concludes, from the totality of circumstances, that
the third step was reached. Judge Hughes's findings are inconsistent with any finding of intent. This
includes her remarks on the record following the off the record conversation; her statement in the §
1925 post-trial opinion that "each strike exercised by the Commonwealth was race-neutral [and] the
appellant has no viable claim of purposeful discrimination" (emphasis {2011 U.S. Dist. LEXIS
50}added); 14 and her conclusion in 9 of her § 2245 certificate, "that neither side was engaging in
race-based strikes." Remembering that the burden is on the petitioner, this Court concludes, as the
Third Circuit did in Bond, that Saunders did not meet his burden of showing that purposeful racial
discrimination, and not the proffered explanation, actually motivated the prosecutor's conduct. In this
context, with respect to the Batson motion made at trial, all defense counsel were silent after Judge
Hughes made her findings and asked if any counsel wanted to speak further. See Sept. 10, 2004 Tr.
at 166-68. Although this does not constitute a waiver of the Batson claim, this silence does waive any
argument that Judge Hughes was required to be more specific in her Batson {2011 U.S. Dist. LEXIS
51 >findings. Saunders's counsel had his chance to make a record that might have satisfied
Saunders's burden in this court. He purposefully did not do so. Strategically, defense counsel had
reason to leave the record as it was. To now allow Saunders grounds for relief would give him an
advantage to which he is not entitled, based on his counsel’s strategic silence at trial, and would be
improper and unfair to the Commonwealth.
Concerning the appeal to the Superior Court, as noted above, Saunders, pro se, did not raise any
argument about step three in the Superior Court and therefore its omission of that discussion is not
determinative of anything. That court held that Judge Hughes acted properly within her discretion on
the Batson issue. Thus, applying § 2254(e)(1), the state court record, as supplemented by Judge
Hughes's certificate, allows this Court to conclude that {2011 U.S. Dist. LEXIS 52}under the totality of
circumstances, step three was satisfied.
B.AIternate Analysis of Strikes of Specific Jurors - De Novo
Alternately, in the case that the AEDPA deferential standard does not apply, as Magistrate Judge Rice
held, the Court will perform a de novo review of this aspect of Saunders's claim. Having been given
this opportunity, before Magistrate Judge Rice, Saunders only challenged one juror, an African
American woman referred to as "J.G.," through juror-by-juror comparison. Pet 's Obj. at 17.
Mr. Berardinelli testified at the evidentiary hearing that he struck J.G. on the basis that she was "too
nice" to render a verdict against the defendants and had a degree in Bible study ministry. Sept. 8,
2010 Tr. at 54-56, 90. As an alternative reason for striking J.G., Mr. Berardinelli testified at the
evidentiary hearing that he challenged J.G. with the understanding that the group of 14 jurors of which
J.G. was a part was "much much better on the back end," including individuals that did not raise the
same "red flags" as J.G. and, at least one person Mr. Berardinelli described as a "really well suited
juror." Id. at 55-56.
Saunders now challenges Mr. Berardinelli's explanation of {2011 U.S. Dist. LEXIS 53}his exclusion of
J.G. Pet 's Obj. at 13. Saunders points in comparison to the prosecutor's acceptance of (1) a white
male reverend, with the initials K.C., and (2) a white woman, referred to as V.S., who the prosecutor
described as "nice" and "emotive." 15 Pet.'s Obj. at 13-17.
In his testimony, Mr. Berardinelli made a distinction between J.G. and K.C., stating that he has found
"clergy or ministry people" to "fall into two categories . . . some that are . . . spare the rod, spoil the
child types, and others that are . . . save the world." Sept. 8, 2010 Tr. at 55. Mr. Berardinelli {2011 U.S.
Dist. LEXIS 54}perceived K.C. who was empaneled on the jury as "a very stern old guy" of the latter

lyccases

15

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

category, while J.G. was "too nice" and "raised a concern" that she might not be willing to vote guilty
even if the evidence was present to convict him. Id Mr. Berardinelli also drew a distinction between
J.G. and V.S., indicating again that J.G.'s demeanor came across as someone who "even if the
evidence is there, may not be willing to convict[,]" in contrast to V.S., who he perceived as a "decent
person, but, nevertheless, . . . would be able to follow the evidence and actually convict if it's there."
id at 90-91. 16
This Court finds that Mr. Berardinelli's testimony provides reasonable non-race-based explanations as
to the distinctions between J.G. and the two jurors offered by Saunders as comparators. Further, Mr.
Berardinelli's justification that he recognized several potential jurors to be better suited than J.G.
reflects a legitimate and reasonable trial strategy. As Magistrate Judge Rice indicates, the juror
questionnaires, trial transcript of the voir dire sessions, and Mr. Berardinelli's contemporaneous notes
each provide corroboration for the prosecutor's explanations. See Sept. 9, 2005 Tr. at 216-30, 262-84;
Sept. 10, 2004 Tr. at 89-99; Sept. 8, 2010 Tr. at Exs. P2, P4, P6; R3.
As additional evidence in support of his Batson claim, Saunders points to Mr. Berardinelli's exclusion
of juror R.J. because she was not able to correctly identify a major intersection near to her house, as
well as Mr. Berardinelli's notes regarding juror M.H., which indicated that she had a son who was
Muslim. Pet 's Obj. at 14. Mr. Berardinelli explained in his testimony that {2011 U.S. Dist. LEXIS
56}he was concerned that R.J. would be unable to follow instructions regarding conspiracy, noting that
she was not only unable to identify the major intersection near to her home, but had additionally
provided unresponsive answers on her questionnaire. Sept. 8. 2010 Tr. at 44-45. As to M.H., Mr.
Berardinelli testified that the religion of the juror's son was not relevant, but written it down as a direct
quote regarding her son's participation in a program called "Parents Against Recidivism." jd. at 83.
Saunders offers no comparators for these jurors and the Court finds Petitioner's argument as to these
jurors unpersuasive.
Finally, Saunders argues that the pattern of strikes; Mr. Berardinelli's categorical exclusion of social
workers, which Saunders argues only applied to African American women; and Mr. Berardinelli's
preference for "transplants" or people originally from outside of Philadelphia demonstrate pretext.
Pet.'s Obj. at 13-18. The Court finds both Mr. Berardinelli's justification regarding the exclusion of
social workers and regional preference for people from outside of Philadelphia to be supported by Mr.
Berardinelli's notes and the trial transcript and to establish reasonable {2011 U.S. Dist. LEXIS
57}race-neutral reasons tied to legitimate trial strategies. As to the statistical evidence, the Court
agrees with the conclusion of Magistrate Judge Rice that, while the pattern of strikes and other
statistical evidence was sufficient to meet Saunders's burden at step one, Saunders has failed to meet
his steps two and three burden of persuasion to establish that the Commonwealth exercised its
peremptory strikes based on discriminatory motivation. See R & R at 29.
c.Limitations on Cross-Examination of Mr. Berardinelli at Evidentiary Hearing
Saunders objects to the ruling made by Magistrate Judge Rice limiting the scope of his questioning of
Mr. Berardinelli at the September 8, 2010 evidentiary hearing. Pet.'s Obj. at 18-20. On
cross-examination, counsel for Saunders asked Mr. Berardinelli how often he had been the subject of
a Batson challenge. Sept. 8, 2010 Tr. at 67. The Commonwealth objected. Id. Saunders offered two
bases for the relevance of the question: (1) to test the credibility of Mr. Berardinelli's testimony that he
generally takes notes about juror race and gender in case of a Batson challenge, and (2) as evidence
of Mr. Berardinelli's state of mind regarding whether he was {2011 U.S. Dist. LEXIS 58}basing his
strikes on impermissible factors, jd. Magistrate Judge Rice sustained the objection on grounds of
relevance, noting the general understanding amongst "everyone in the room . . . that Batson
challenges frequently are raised at trial." ]cf at 67-68.
lyccases

16

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

The Federal Magistrates Act provides two separate standards of judicial review: "de novo" for
magistrate resolution of dispositive matters, see 28 U.S.C. § 636(b)(1)(B)-(C), and "clearly erroneous
or contrary to law" for magistrate resolution of nondispositive matters, see 28 U.S.C. § 636(b)(1)(A);
Fed. R. Civ. P. 72(a). Pursuant to 28 U.S.C. § 636(b)(1)(A) and Fed. R. Civ. P. 72(a), the ruling by
Magistrate Judge Rice on Saunders's evidentiary objection constitutes an order, rather than a
recommendation and may only be modified or set aside by this Court if it is "clearly erroneous or is
contrary to law." See 28 U.S.C. § 636(b)(1)(A); Fed. R. Civ. P. 72(a).
Rule 403 of the Federal Rules of Evidence permits exclusion of relevant evidence "if its probative
value is substantially outweighed by the danger of unfair prejudice, confusion of the issues, or
misleading the jury, or by considerations of undue delay, waste of time, or needless {2011 U.S. Dist.
LEXIS 59}presentation of cumulative evidence." The decision to exclude evidence under Fed. R. Evid.
403 is afforded "substantial discretion," McKenna v. City of Philadelphia, 582 F.3d 447, 461 (3d. Cir.
2009) (citing United States v. Eufrasio, 935 F.2d 553, 572 (3d Cir. 1991)), and "a trial judge's decision
to admit or exclude evidence under Fed. R. Evid. 403 may not be reversed unless it is arbitrary and
irrationalj.]" |d. (quoting Bhaya v. Westinqhouse Elec. Corp.. 922 F.2d 184, 187 (3d Cir. 1990)).
Given the "substantial discretion" allowed a trial judge excluding evidence pursuant to Fed. R. Evid.
403, McKenna. 582 F.3d at 461, Saunders has made no showing that this decision by Magistrate
Judge Rice was "clearly erroneous" or "contrary to law." 28 U.S.C. § 636(b)(1)(A); Fed. R. Civ. P.
72(a).
B.Sufficiencv of the Evidence
Saunders objects that there was insufficient evidence to support his conviction of one count of
conspiracy to commit escape because there was no evidence that Saunders engaged in an illicit
agreement. Pet.'s Obj. at 21-24. Saunders contends that, on direct review, Judge Hughes and the
Superior Court relied on an erroneous finding that Saunders engaged in a conversation with {2011
U.S. Dist. LEXIS 60}Brown on July 2, 2001, when that conversation, in fact, occurred between Brown
and Saunders's alleged co-conspirator Prout. Pet's Obj. at 21. Saunders contends that Magistrate
Judge Rice made a similar error by relying on this conversation in determining Saunders's sufficiency
of the evidence claim. Jkb
A claim that the "evidence in support of [a] state conviction cannot be fairly characterized as sufficient
to have led a rational trier of fact to find guilt beyond a reasonable doubt [is] cognizable in a federal
habeas corpus proceeding." Robertson v. Klem. 580 F.3d 159, 164-65 (3d Cir. 2009) (citing Jackson
v. Virginia. 443 U.S. 307, 321,99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979); see also Fiore v. White. 531
U.S. 225, 121 S. Ct. 712, 148 L. Ed. 2d 629 (2001) (per curiam) ("We have held that the Due Process
Clause of the Fourteenth Amendment forbids a State to convict a person of a crime without proving
the elements of that crime beyond a reasonable doubt.")). On habeas review, a district court applies
the sufficiency of the evidence standard "with explicit reference to the substantive elements of the
criminal offense as defined by state law," id. (quoting Jackson. 443 U.S. at 324 n. 16), asking "whether
after reviewing the evidence in the light most {2011 U.S. Dist. LEXIS 61}favorable to the prosecution,
any rational trier of fact could have found the essential elements of the crime beyond a reasonable
doubt." Jackson, 443 U.S. at 319.
Under Pennsylvania law, a person commits escape "if he unlawfully removes himself from official
detention or fails to return to official detention following temporary leave granted for a specific purpose
or limited period." See 18 Pa. Cons. Stat. § 5121(a). A person commits conspiracy if he "enter[s] into
an agreement to commit or aid in an unlawful act with another person or persons, with a shared
criminal intent, and an overt act was done in the conspiracy's furtherance." Commonwealth v.

lyccases

17

© 2020 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Weimer. 602 Pa. 33, 977 A.2d 1103, 1106 (Pa. 2009) (citing 18 Pa. C.S. § 903; Commonwealth v.
Rios. 546 Pa. 271,684 A.2d 1025, 1030 (Pa. 1996)). "[A] co-conspirator is not relieved of liability
because he is not present at the execution of the crime." Commonwealth v. Burton, 459 Pa. 550, 330
A.2d 833, 835 (Pa. 1975) (quoting Commonwealth v. Burdell. 380 Pa. 43, 110 A.2d 193 (Pa. 1955)).
As quoted by Judge Hughes and cited by the Superior Court on nunc pro tunc appeal, the experts
translated the conversation in question as follows:
Brown demanded to know why the appellant had not executed {2011 U.S. Dist. LEXIS 62}the
agreed upon plan. Appellant explained that they had in fact been at the courthouse but the plan
failed. Brown asked appellant, "where's the car at?" Appellant responded: "On 18th . . ." Brown
stated: "You got my car just sitting out there running . . . where is the gun?" Appellant responded:
"In the car."See Saunders. 946 A.2d at 780 (citing Saunders. 2666 EDA 2006, at *5). The R & R
similarly quotes this passage at page 15.
Both the trial and Superior Court opinions cite the September 14, 2004 transcript at pages 196-97 for
support that this conversation occurred between Saunders and Brown, id. Saunders has now included
that portion of the transcript as an exhibit to his Objections, stating that the witness, Alan Cain, "plainly
identifies co-defendant Brian Prout, 17 not Mr. Saunders, as the speaker in C-14[,]" the exhibit
identified as "Transcript of Recorded Conversation 7/2/01." Pet 's Obj. at 22; see Sept. 14, 2004 Tr. at
3-4. Saunders further points to Mr. Berardinelli's closing in which the prosecutor names Prout, not
Saunders, in reference to the July 2, 2001 conversation. Pet.'s Obj. at 22. Without evidence of this
July 2, 2001 conversation, Saunders argues that there is (2011 U.S. Dist. LEXIS 63}insufficient
evidence to support his conviction.
Despite arguing that this purported error has been perpetuated throughout direct review and by
Magistrate Judge Rice, Saunders appears to have only now raised this issue for the first time in his
objections to the R & R. This Court finds no mention of this argument in Saunders's habeas petition,
nor did counsel raise the issue during the evidentiary hearing. An issue is waived if a petitioner fails to
raise it and the issue could have been raised before trial, at trial, on appeal, in a habeas corpus
proceeding, or in a prior proceeding. 42 Pa. Cons. Stat. § 9544(b). "[I]f [a] petitioner failed to exhaust
state remedies and the court to which the petitioner would be required to present his claims in order to
meet the exhaustion requirement would now find the claims procedurally barred ... there is procedural
default for purposes of federal habeasf.]" Coleman v. Thompson, 501 U.S. 722, 735 n. 1, 111 S. Ct.
2546, 115 L. Ed. 2d 640 (1991); {2011 US. Dist. LEXIS 64)McCandless v. Vaughn. 172 F.3d 255,
260 (3d Cir. 1999).
Even without consideration of the July 2, 2001 conversation, this Court concurs with Magistrate Judge
Rice's conclusion that the Superior Court decision to reject Saunders's sufficiency of the evidence
claim was not contrary to, nor an unreasonable application of Supreme Court precedent. As
Magistrate Judge Rice states, the state courts found the evidence to establish that Saunders paid
multiple visits to Brown, in which the two discussed in "code" the plan to free Brown from custody,
including a visit the day prior to the attempted escape. R & R at 15 (citing Saunders, 946 A.2d at 781).
In addition to the July 2, 2001 conversation, the Superior Court specifically cited two translated
conversations, on June 21, 2001, and June 27, 2001, in which Saunders and Brown discussed the
difficulties of "effectuat[ing] an escape because there would be many police and court personnel
around" and "revealfed] that [Saunders] indicated he had been scoping out the scene and that it had
to be done right." Saunders. 946 A.2d at 782 (citing Sept. 20, 2004 Tr. at 246-51, 268-72). The
Superior Court relied on these two conversations to find that Saunders {2011 U.S. Dist. LEXIS
65}had not withdrawn from the conspiracy. As discussed in the R & R, the Superior Court further
rejected Saunders's contention that he could not be convicted for conspiracy if he was not present

lyccases

18

© 2020 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

during Brown's attempted escape, stating that "[i]t is well settled that a co-conspirator not present at
the execution of the crime is not relieved of liability." Saunders. 946 A.2d at 782 (quoting
Commonwealth v. Calloway. 313 Pa. Super. 173, 459 A.2d 795, 797 (Pa. 1983)).
This Court adopts the conclusion of Magistrate Judge Rice that the sufficiency of the evidence claim is
meritless.
C.Confrontation Clause
Saunders alleges that the trial court limited the scope of cross-examination of Corbiscello's expert
testimony, violating Saunders's Sixth Amendment right to confrontation. Pet.'s Obj. at 24. At trial and
on direct review, Saunders challenged the disallowance by Judge Hughes of the following questions
regarding Corbiscello's qualifications:
Are you familiar with the federal court case of Mary versus Brodus [sic] in which a federal court says
that Have you spoken to any Five-Percenters that were members of the professions, such as the legal
profession or medical profession?
See R & R at 10 (citing Direct Appeal {2011 U.S. Dist. LEXIS 66}Br. at 14; Sept. 21, 2004 Tr. at
105-06, 111). Saunders also objected to the disallowance of the following questions asked during
cross-examination on the basis for Corbiscello's opinion.
Would you say that you have knowledge about the Five-Percenters or members of the
Five-Percenters organization who are not in prison or is your education only limited to Five-Percenters
inside of prison?
Do you know that the Five-Percenter School enjoys a not-for-profit tax status in New York?
Did you know that the Five-Percenter School has after-school tutoring for children and substance
abuse programs?
Do you know any famous individual, such as Erika Baydu, who is a member of the Five-Percenters?
See R & R at 11 (citing Direct Appeal Br. at 14; Sept. 21,2004 Tr. at 172).
In his objection to the R & R, Saunders contends Corbiscello was testifying as a "gang expert" and
that the purpose behind Saunders's questions was to counter any bias and rebut an implication by his
testimony that Five-Percenters are a criminal or high risk element. See Pet.'s Obj. at 24-26. Saunders
contends, as well, that the questions were necessary to establish the limitations of Corbiscello's
expertise due to the fact that {2011 U.S. Dist. LEXIS 67}his interactions and experience with
Five-Percenters was restricted to the gang and prison context, jd. The Court finds these objections
merely reiterate the arguments expressed in Claim Two of Saunders's habeas petition. See Habeas
Pet. at 22. The Court adopts the determination of Magistrate Judge Rice that the Superior Court's
decision, holding that Judge Hughes did not abuse her discretion in disallowing Saunders's questions,
was not contrary to, nor an unreasonable application of Supreme Court precedent. See R & R at
11-12 (citing Delaware v. Van Arsdall. 475 U.S. 673, 678, 106 S. Ct. 1431, 89 L. Ed. 2d 674 (1986)
(holding that courts have wide "wide latitude insofar as the Confrontation Clause is concerned to
impose reasonable limits on such cross-examination based on concerns about, among other things,
harassment, prejudice, confusion of the issues, the witness' safety, or interrogation that is repetitive or
only marginally relevant."); Williams, 529 U.S. at 404-09; § 2254(d)(1)); see also Saunders. 946 A.2d
at 786.
V.Certificate of Appealability

lyccases

19

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

This Court has decided to certify for appeal in this case the following issues:
1. Whether the findings contained within a certificate filed pursuant to 28 U.S.C. § 2245 {2011
U.S. Dist. LEXIS 68}are subject to the deferential standard of 28 U.S.C. § 2254(e)(1). Given that
consideration of Judge Hughes's certificate under § 2245 is subject to serious dispute between
the undersigned and Magistrate Judge Rice, the Third Circuit may consider this issue worthy of
appellate review.
2. Whether the Commonwealth exercised its peremptory strikes in a discriminatory manner in
violation of Batson v. Kentucky, 476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d 69 (1986). The Court
recognizes that reasonable jurists could disagree on the interpretation of the factual record,
particularly Assistant District Attorney Berardinelli's striking of Juror J.G., number 27, since
defendants raised a prima facie case of discrimination and there is a question whether Mr.
Berardinelli gave a sufficiently race-neutral reason for striking Juror Number 27.
3. Whether Saunders's failure, at trial, to specifically request the trial judge to proceed to step
three of Batson, and failure, at the § 2254 evidentiary hearing, to call witnesses with knowledge of
the state court proceedings should result in a waiver of any claim that Batson procedures were not
followed.

Vl.Conclusion
For the reasons stated above, the petition for a writ of habeas corpus will {2011 U.S. Dist. LEXIS
69}be denied, and a certificate of appealability will be issued with respect to Petitioner's Batson claim
(Claim One). An appropriate Order follows.
ORDER
AND NOW, this 26th day of May, 2010, it is hereby ORDERED that the Petition for Writ of Habeas
Corpus (ECF No. 1), filed pursuant to 28 U.S.C. § 2254, is DENIED.
A certificate of appealability is GRANTED, pursuant to 28 U.S.C. § 2253(c)(2), with respect to the
following issues related to the Petitioner's Batson claim (Claim One):
1. To what degree deference was due the certificate submitted by the trial court, pursuant to 28
U.S.C. §2245.
2. Whether Commonwealth exercised its peremptory strikes in a racially discriminatory manner in
violation of Batson v. Kentucky. 476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d 69 (1986),
3. Whether Petitioner's Batson claim is subject to waiver.
The Clerk shall close this case.
BY THE COURT:
Is Michael M. Baylson
Michael M. Baylson, U.S.D.J.
Footnotes

1
Saunders has conceded the grand jury and Blakely claims and raises {2011 U.S. Dist. LEXIS 2}no

lyccases

20

© 2020 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

objections to the recommendations of the magistrate judge on these claims. See Report and
Recommendation at 6 n.5 (citing Sept. 8, 2010 Tr. at 109); at 7 n.6 (citing Sept. 8, 2010 Tr. at 109).
2
The Five-Percent Nation breaks the world's population into three groups: the "Ten Percent" (white
people, who are rich and subjugate the poor), the "Eighty-five Percent" (people of color subjugated by
the Ten Percent); and the "Five Percent" (African Americans who have achieved self knowledge and
believe it is their job to lead the Eighty-five Percent to righteousness. R & R at 2, n.1.
3
Saunders has also been convicted of numerous other crimes, including rape and burglary, for which
he was sentenced to forty-eight-and-one-half to ninety-seven years imprisonment. Saunders, 946
A.2d at 778 n.2. Counsel for Saunders on this habeas petition confirmed in a May 2, 2011 letter to
chambers that Saunders remains incarcerated. The record is not clear as to whether Saunders is now
serving the sentence he received on the "conspiracy to commit escape of a prisoner" charge or
whether the sentence imposed on that crime is running consecutive to, or concurrent with, the
sentence for rape and burglary. In any event, it appears that Saunders is either now serving, or will in
the future serve, his sentence on the conspiracy conviction, and therefore he satisfies the "in custody"
requirement of § 2254. The Commonwealth has not disputed Saunders's standing under § 2254.
4
The Supreme Court has recognized that the principles articulated in Batson apply to exclusion of
jurors based on gender. See J.E.B, v. Alabama ex rel. T.B., 511 U.S. 127, 129, 114 S. Ct. 1419, 128
L. Ed. 2d 89 (1994). While the race of the eight African American female jurors excluded by the
Commonwealth has been the dominant focus of Saunders's claim, Saunders has raised gender
consistently from the time {2011 U.S. Dist. LEXIS 9}of trial, on direct review, in his habeas petition,
and at the evidentiary hearing before Magistrate Judge Rice. See Sept. 10, 2004 Tr. at 162-68; Resp.
to Habeas Pet. Ex. B at 15-18; Habeas Pet. at 13; Sept. 8, 2010 Tr. at 23, 76-77. Saunders has again
raised the gender of the stricken jurors in his objections to Magistrate Judge Rice's R & R. See R & R
at 7-17. Further, although Judge Hughes's conclusions were specific as to race, the Court recognizes
that Judge Hughes considered the gender composition of the stricken and accepted jurors at trial.
Sept 10, 2004 Tr. at 162-68. At trial and in her § 1925 opinion, Judge Hughes placed findings to this
effect on the record. See Sept. 10, 2004 Tr. at 162-68; Saunders, 2666 EDA 2006, at *6. Thus, to the
extent Saunders is making a claim regarding gender, this Court's analysis regarding the race-neutral
grounds for exclusion applies to gender, as well.
5
As noted and discussed below, although the Superior Court did not fully follow United States Supreme
Court precedent on Batson procedure, that omission may reflect Saunders's pro se brief on direct
appeal, which was limited to discussion of the first step of Batson, establishing a prima facie case of
discrimination and claiming that Judge Hughes had failed to proceed to step two. As noted below,
Saunders's pro se appellate brief does not discuss step three at all and this may be a reason why the
Superior Court did not discuss it. Alternatively, the Superior Court may have concluded, as discussed
below, that Judge Hughes's findings encompassed a step three discussion.
6
Saunders filed a second PCRA petition on unrelated issues on April 15, 2009, and that petition is now
pending. Habeas Pet. at 5-6 (ECF No. 1).
7
Due to the pending PCRA state court proceedings on Saunders's unexhausted claims, the magistrate
judge found the state court record to be unavailable and ordered the parties to file in this court copies

1yccases

21

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

of all state court records and proceedings relevant to Saunders's Batson claim. ECF No. 25 at 1, n.1.
8
At the evidentiary hearing, the Commonwealth discussed with Magistrate Judge Rice that Judge
Hughes had bench notes that she did not provide to the Commonwealth, but referenced them in her
conversation with counsel. Sept. 8, 2010 Tr. at 127-28.

9
Although the record is not clear, the Court interprets this comment {2011 U.S. Dist. LEXIS 22}to refer
to a juror's origins, as it is obvious that only Philadelphia residents are entitled to serve as jurors in
criminal cases tried in Philadelphia.

10
Without evidence to the contrary, the Commonwealth is entitled to a presumption that Judge Hughes
has acted in accordance with the law and provided an accurate recollection of the state court
proceedings in her § 2245 certificate. See Perkins v. Matthews, 400 U.S. 379, 394, 91 S. Ct. 431, 27
L. Ed. 2d 476 (1971) (determining that municipal officials would be entitled to the presumption that
they conducted local elections in accordance with Mississippi law unless evidence showed otherwise)
(citing First Nat'l Bank of Albuquerque v. Albright, 208 U.S. 548, 553, 28 S. Ct. 349, 52 L. Ed. 614
(1908)); {2011 U.S. Dist. LEXIS 32}see also Kennedy v. Upper Milford Tp. Zoning Hearing Bd.. 575
Pa. 105, 834 A.2d 1104, 1123 (Pa. 2003) (holding that plaintiffs failed to meet their burdens of proof
and persuasion to establish a violation of the 1998 Sunshine Act because the evidence was
"inadequate to overcome the presumption of regularity and legality that obtains in connection with
proceedings of local agencies") (citing Albert v. Lehigh Coal & Nav. Co.. 431 Pa. 600, 246 A.2d 840,
845 (Pa. 1968) ("There is a prima facie presumption of the regularity of the acts of public officials
which exists until the contrary appear.")). In accordance with their oaths of impartiality, trial judges are
strongly presumed to "conduct all proceedings under their charges with honesty and integrity."
Tai-Nan v. Palkovich. No. 05-CV-2655, 2006 U.S. Dist. LEXIS 63266, 2006 WL 2583567, at *13 (E.D.
Pa. Sept. 5, 2006) (Green, S.J.) (rejecting habeas petitioner's claim that he was denied due process
when the trial judge refused to recuse himself from the bench trial after viewing petitioner's
presentence report) (citing Aetna Life Ins. Co. v. Lavoie. 475 U.S. 813, 831-832, 106 S. Ct. 1580, 89
L. Ed. 2d 823 (1986)).

11
The Court also observes, notwithstanding that {2011 U.S. Dist. LEXIS 36}Judge Hughes did not state
the Batson requirements in full, that crediting Judge Hughes's certificate and Mr. Berardinelli's
testimony, and the fact that Judge Hughes concluded that the Commonwealth's strikes were
race-neutral, may have warranted Magistrate Judge Rice concluding that the state record showed
proper Batson procedure had been followed, at least as to step two. This would require a conclusion
that even though Judge Hughes rejected defendants' claim that the defendants established a prima
facie case, by proceeding to step two and making a factual finding of race neutrality, she had in effect
proceeded as if a prima facie showing had been established. Otherwise, there would have been no
reason to proceed to step two, although the record is clear.

12
It also appears that the Superior Court, by finding that Judge Hughes did not abuse her discretion in
handling the Batson challenge, likewise applied an incorrect legal standard, but this may have
resulted, in part, from Saunders's pro se inadequate analysis in presenting this issue.

13
If Magistrate Judge Rice had given Judge Hughes's certificate the requisite deference, Magistrate
Judge Rice may have concluded that an evidentiary hearing was not necessary. However, since he

lyccases

22

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

had the hearing, this Court will rely on the record established at the hearing and, in part, Magistrate
Judge Rice's conclusions based on the hearing, as specified above.

14
In Batson, the Supreme Court used the word "purposeful," 476 U S. at 86. In Williams, the Third
Circuit most recently used the word "purposeful" to describe the defendant's burden at step three, 637
F.3d at 205. Thus, when Judge Hughes's finding rejected a claim of "purposeful discrimination," she
satisfied step three.

15
Mr. Berardinelli's contemporaneous notes describe J.G. in the following terms:
(14) [J.G.]
2 kids too nice
B/F/North
bible study/ministry
rehabilitation
husband post office
juror before process fairSee Sept. 8, 2010 Tr. at Ex. R3.
Mr. Berardinelli's contemporaneous notes for the comparators K.C. and V.S. read as follows:
(34) [K.C ]
W/M/Germantown (from Buffalo)
Minister (works for foreign mission board) Presbyterian
2 kids
previously on federal grand jury

(27) W/F/Overbrook/Married/2 kids - nice lady
- masters degree
- victim (house robbed)
- can follow law
- concerned by A's
- would have sympathies for bothSee id.

16
Saunders raises an additional issue regarding V.S.’s answers in her juror questionnaire regarding
whether she would be hampered in her ability to render a decision due to her moral beliefs or whether
she would have problems applying the instructions of the trial judge. Pet.'s Obj. at 13. However, the
trial transcript and the questionnaire itself make clear that this juror's reservations were primarily due
to her views on the death penalty, which Judge Hughes explained to her was not an issue in this case.
Sept. 10, 2004 Tr. 23-32. Second, while V.S. expressed to Judge Hughes that {2011 U.S. Dist. LEXIS
55}she might be emotional and have sympathies for "both sides," she also stated that she would be

lyccases

23

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

able to render a verdict in this case. Id.

17
Brian Prout, while discussed in the opinions of the trial and Superior Courts as an alleged
co-conspirator, is not listed in the trial transcripts as a co-defendant, nor mentioned in Judge Hughes's
§ 1925 opinion as such. See 2666 EDA 2006, at * 2.

lyccases

24

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

a XldNHddV

CRAIG SAUNDERS, Appellant v. FRANKLIN J. TENNIS, SUPERINTENDENT; THE DISTRICT
ATTORNEY OF THE COUNTY OF PHILADELPHIA; THE ATTORNEY GENERAL OF THE STATE OF
PENNSYLVANIA
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
483 Fed. Appx. 738; 2012 U.S. App. LEXIS 10783
No. 11-2743
May 24, 2012, Submitted Under Third Circuit LAR 34.1(a)
May 29, 2012, Filed
Notice:
NOT PRECEDENTIAL OPINION UNDER THIRD CIRCUIT INTERNAL OPERATING PROCEDURE
RULE 5.7. SUCH OPINIONS ARE NOT REGARDED AS PRECEDENTS WHICH BIND THE
COURT.PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1
GOVERNING THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History
{2012 U.S. App. LEXIS 1}
On Appeal from the United States District Court for the Eastern District of Pennsylvania. (D C. No.
09-CV-01916). District Judge: Honorable Michael M. Baylson.Saunders v. Tennis, 2011 U.S. Dist. LEXIS
57328 (E.D. Pa., May 26, 2011)
Counsel

For CRAIG DUVAL SAUNDERS, Plaintiff - Appellant: Peter D. Hardy,
Esq., Matthew T. Newcomer, Esq., Post & Schell, Philadelphia, PA.
For FRANKLIN TENNIS, SUPERINTENDENT, DISTRICT
ATTORNEY PHILADELPHIA, ATTORNEY GENERAL PENNSYLVANIA, Defendants Appellees: Susan E. Affronti, Thomas W. Dolgenos, Esq., Philadelphia County Office of
District Attorney, Philadelphia, PA.
Judges: Before: RENDELL, FUENTES and HARDIMAN, Circuit Judges.
CASE SUMMARY
PROCEDURAL POSTURE: The U.S. District Court for the Eastern District of Pennsylvania denied
habeas relief on petitioner state inmate's challenge to the prosecutor's peremptory strikes on
African-American women, but granted a certificate of appealability as to the degree of deference owed to
the state judge's 28 U.S.C.S. § 2245 certificate and whether the prosecutor exercised his strikes in a
racially discriminatory manner in violation of Batson. The inmate appealed.Prosecutor's striking 8
African-American women in a row, using all strikes at that point to remove them, satisfied an inmate's
step-one Batson challenge burden, but, even if state judge's 28 U.S.C.S. § 2245 certificate was given no
deference, the claim failed as nothing discredited the race-neutral reasons or showed discriminatory
motive.
OVERVIEW: The state court unreasonably applied Batson when it rejected the inmate's objection on the
basis that 4 African-American women had been selected, making them the best-represented demographic
on the panel. Striking 8 African-American women in a row, using all of strikes exercised at that point to
remove African-American women, was clearly sufficient to satisfy the inmate's step-one burden. Even

03CASES

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

granting the inmate every benefit of the doubt by assuming the federal evidentiary hearing was properly
held, by declining to afford deference under 28 U.S.C.S. § 2254(d), and by accepting his argument that no
deference was owed to the state judge's § 2245 certificate, the Batson claim failed at step three. There
was no showing of purposeful discrimination in the prosecutor's peremptory strikes because the inmate
had not discredited the prosecutor's race-neutral reasons or further demonstrated discriminatory motive.
While the pattern of strikes and other statistical evidence was sufficient to meet the step one burden, the
inmate failed to meet his steps two and three burden of persuasion to establish the hat the peremptory
strikes were exercised based on discriminatory motivation.
OUTCOME: The denial of the petition was affirmed.
LexisNexis Headnotes
Criminal Law & Procedure > Habeas Corpus > Appeals > Standards of Review > Clear Error Review
Criminal Law & Procedure > Habeas Corpus > Appeals > Standards of Review > De Novo Review
An appellate court exercises plenary review over the district court's denial of habeas corpus, and reviews
its factual findings for clear error.
Constitutional Law > Equal Protection > Level of Review
Criminal Law & Procedure > Juries & Jurors > Challenges to Jury Venire > Equal Protection
Challenges > General Overview
Criminal Law & Procedure > Habeas Corpus > Review > Specific Claims > Prosecutorial
Misconduct
Criminal Law & Procedure > Habeas Corpus > Review > Standards of Review > Contrary &
Unreasonable Standard > General Overview
Under the Antiterrorism and Effective Death Penalty Act, 28 U.S.C.S. § 2254(d), a federal court may not
grant a petitioner habeas relief on a Batson claim unless the state court's ruling was contrary to or an
unreasonable application of clearly established United States Supreme Court law, or involved an
unreasonable determination of the facts.
Constitutional Law > Equal Protection > Race
Criminal Law & Procedure > Juries & Jurors >
Challenges > Burdens of Proof
Criminal Law & Procedure > Juries & Jurors >
Challenges > Equal Protection Rule
Criminal Law & Procedure > Juries & Jurors >
Challenges > Race-Neutral Strikes
Criminal Law & Procedure > Juries & Jurors >
Challenges > Tests

Challenges to Jury Venire > Equal Protection
Challenges to Jury Venire > Equal Protection
Challenges to Jury Venire > Equal Protection
Challenges to Jury Venire > Equal Protection

It is well-established under Batson that the Fourteenth Amendment's Equal Protection Clause prohibits a
prosecutor from using a peremptory challenge to strike a prospective juror solely on account of race. The
Batson analysis proceeds in three steps. First, the trial court must determine whether the defendant has
made a prima facie showing that the prosecutor exercised a peremptory challenge on the basis of race.
Second, if the showing is made, the burden shifts to the prosecutor to present a race-neutral explanation
for striking the juror in question. Although the prosecutor must present a comprehensible reason, the
second step of this process does not demand an explanation that is persuasive, or even plausible; so long

03CASES

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

as the reason is not inherently discriminatory, it suffices. Third, the court must then determine whether the
defendant has carried his burden of proving purposeful discrimination. This final step involves evaluating
the persuasiveness of the justification proffered by the prosecutor, but the ultimate burden of persuasion
regarding racial motivation rests with, and never shifts from, the opponent of the strike. At the third step,
something more than a terse, abrupt comment that the prosecutor has satisfied Batson is required.
Constitutional Law > Equal Protection > Race
Criminal Law & Procedure > Juries & Jurors > Challenges to Jury Venire > Equal Protection
Challenges > Equal Protection Rule
Batson makes clear that the State's privilege to strike individual jurors through peremptory challenges is
restricted by the Equal Protection Clause. Accordingly, a prosecutor's purposeful discrimination in
excluding even a single juror on account of race cannot be tolerated and a prosecutor can find no refuge
in having accepted other venirepersons of that race for the jury.
Opinion
Opinion by:

HARDIMAN
Opinion

{483 Fed. Appx. 739} OPINION OF THE COURT
HARDIMAN, Circuit Judge.
Craig Saunders appeals the District Court's denial of his petition for writ of habeas corpus, arguing
that the Pennsylvania state courts and the District Court erred in rejecting his claim under Batson v.
Kentucky, 476 U S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d 69 (1986). We will affirm.
I
Because we write for the parties, who are well acquainted with the case, we recount only the essential
facts and procedural history.
In September 2004, Saunders was tried and convicted in Pennsylvania state court on one count of
conspiracy to commit escape of a prisoner. The Honorable Renee Cardwell Hughes presided over
{2012 U.S. App. LEXIS 2}his trial. During jury selection, the prosecution and the defense each
received nine peremptory strikes to be used during the selection of the twelve-juror panel and one
peremptory strike to be used during the selection of two alternate jurors. After several individuals in
the initial forty-person venire were stricken for cause, remaining candidates were questioned
individually. When individual voir dire concluded, the proceedings went off the record and the parties
took turns exercising their peremptory strikes.
After the prosecutor had exercised eight of his nine peremptory strikes, defense counsel objected that
the prosecutor was {483 Fed. Appx. 740} discriminating against African-American women in violation
of Batson. Of the twenty-five jurors who were not stricken for cause, thirteen were African-American
women. At the time of Saunders's objection, every one of the prosecutor's exercised strikes had been
used to remove an African-American woman from the venire. At that point, ten jurors had been
selected: four African-American women, three white women, two African-American males, and one
white male.

03CASES

3

© 2020 Matthew Bender & Company, !nc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

There is substantial uncertainty regarding what occurred after Saunders's objection. The trial record
{2012 U.S. App. LEXIS 3}reflects only the following ruling by the state court:
COURT: [Y]ou do understand that you cannot make out a Batson[] [challenge] if there are four
African American women on the panel. And that is the dominant racial demographic on the panel.

... If there was [sic] no African American females seated on this panel, you can [sic] rightfully say
the Commonwealth has stricken a particular class. But. . . there have been four African American
females that the Commonwealth agreed to place on the panel, and at least one other African
American female the Commonwealth desires who was stricken by the Defense.
... So at this point, I cannot deem that you've made out a Batson[] claim. The Commonwealth is
not required to respond. But your objection is noted for the record.(App. 171.) The parties agree
that the prosecutor never justified his peremptory strikes on the record, but there are other
indications that he offered race-neutral explanations off the record.
In Judge Hughes's opinion rejecting Saunders's post-trial Batson motion, she wrote:
The Commonwealth did strike eight (8) African American females during the voir dire process and
provided a race neutral basis for each strike. {2012 U.S. App. LEXIS 4}The Commonwealth's
position was further supported by the fact that of the ten jurors chosen, four (4) were African
American females. These four were the dominant race and gender of the panel. Given that
African American females comprised the majority group on the panel and each strike exercised by
the Commonwealth was race neutral, the appellant has no viable claim of purposeful
discrimination. Appellant's Batson challenge fails as he cannot make out a prima facie case
showing that the circumstances created an inference that the prosecutor struck one or more
prospective jurors on the basis of race.(App. 504 (emphasis added) (citations omitted).) Although
Judge Hughes's opinion purported to cite to pages in the trial transcript containing the
prosecutor's race-neutral explanations, the referenced pages contain no such record.
Nevertheless, the fact that the prosecutor at some point provided race-neutral reasons for his
strikes is corroborated by both a certificate filed by Judge Hughes with the District Court pursuant
to 28 U.S.C. § 2245 and the prosecutor's testimony at a subsequent federal evidentiary hearing.
At the evidentiary hearing, the prosecutor testified that the parties and {2012 U.S. App. LEXIS
5}Judge Hughes discussed the Batson challenge for ten to fifteen minutes in the robing room with no
court reporter present According to the prosecutor, defense counsel restated the Batson objection,
both sides presented race-neutral reasons for their strikes, and the court reviewed the race and
gender of each stricken and seated juror. The prosecutor claimed he struck the eight
African-American women primarily pursuant to his general jury-selection philosophies{483 Fed. Appx.
741} disfavoring social workers and psychiatrists, as well as former arrestees and their relatives and
friends, and preferring law enforcement personnel, public employees, victims of crime, older jurors,
and those born and raised outside of Philadelphia.
Judge Hughes's § 2245 certificate stated that she asked both sides to explain their strikes at a sidebar
and that the prosecutor "gave unequivocal, race-neutral explanations for each of his peremptory
challenges." (App. 328.) The certificate also reiterated the basis for the Batson ruling:
After considering the facts and the responses of counsel, including the fact that the majority of the
jurors selected at the time of the motion were African-American and of that number, exactly half
{2012 U.S. App. LEXIS 6}of the jury was comprised of African-American women, I concluded that

03CASES

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

neither side was engaging in race-based strikes, and that objecting counsel had failed to establish
a prima facie showing of discrimination.
When I returned to the bench, I formally recited on the record, the race and gender of each juror
stricken by the prosecutor and the racial composition of the eight jurors who had been chosen
prior to the motion ... in order to ensure that the defendants understood from me why the motion
was not being entertained further as the defense could not make out a prima facie case. 1(App.
328.)
After the Court ruled from the bench, the prosecutor sought to state his race-neutral reasons on the
record. But the Court demurred: "Having determined that the defense had not demonstrated a prima
facie case . . . there was no need for [the prosecutor] to restate his reasons for striking the jurors."
(App. 328.) When jury selection resumed, {2012 U.S. App. LEXIS 7}the prosecutor opted not to use
his ninth peremptory strike.
After his post-trial motions were denied, Saunders raised his Batson claim pro se on direct appeal to
the Pennsylvania Superior Court. Finding that "a portion of the discussion regarding [Saunders's]
Batson claim apparently occurred 'off the record'" and noting that "[t]he certified record contains
nothing more than the trial court identifying the race and gender of the potential jurors who were struck
by the parties," the Pennsylvania Superior Court summarily found "no abuse of discretion" by the trial
court. Commonwealth v. Saunders, 2008 PA Super 60, 946 A.2d 776, 782-84 (Pa. Super. Ct. 2008).
The Pennsylvania Supreme Court denied Saunders's request for an appeal. Commonwealth v.
Saunders, 598 Pa. 774, 958 A.2d 1047 (Pa. 2008). Saunders then filed a habeas petition under 28
U.S.C. § 2254 in the United States District Court for the Eastern District of Pennsylvania on May 4,
2009.
After the case proceeded to federal court, Magistrate Judge Timothy Rice held an evidentiary hearing
to develop the record regarding Saunders's Batson claim. As described above, the prosecutor testified
regarding the trial proceedings surrounding Saunders's Batson claim and the {2012 U.S. App. LEXIS
8}prosecution's justifications for striking eight African-American women from the jury pool. The
Magistrate Judge found that Judge Hughes had ended her inquiry at the prima facie stage of the
Batson inquiry, citing her statements at trial, her post-trial opinion, and her § 2245 certificate. He
disregarded her § 2245 certificate, finding that she offered inconsistent{483 Fed. Appx. 742}
explanations for her Batson ruling, her decision was based on unsupported facts and inaccurate
statements of the law, and her description of the off-the-record Batson discussion was implausible
and inconsistent with the prosecutor's testimony. The Magistrate Judge further concluded that Judge
Hughes's determination that the prosecutor's strike pattern failed to create an inference of
discrimination sufficient to establish a prima facie Batson claim was contrary to clearly established
Supreme Court precedent. Therefore, he accorded no deference to Judge Hughes’s decision and
proceeded to determine cfe novo whether Saunders's Batson claim was meritorious at step three
based on the plausibility of the prosecutor's race-neutral explanations for his strikes. The Magistrate
Judge concluded that Saunders's Batson claim ultimately {2012 U.S. App. LEXIS 9}failed because
"the evidence . . . [did] not establish that the Commonwealth engaged in purposeful discrimination
against African-American and/or female jurors." (App. 357.) Accordingly, the Magistrate Judge
recommended that Saunders's habeas petition be denied.
In a comprehensive forty-three page opinion, the District Court likewise concluded that Saunders's
habeas petition should be denied because his Batson claim failed. In that opinion, the District Court
disagreed with the Magistrate Judge regarding the weight to be given to Judge Hughes's certificate
and the extent of her Batson analysis at trial. Affording the § 2245 certificate the presumption of
correctness generally applied to state court findings under § 2254(e)(1) and finding "nothing in the

03CASES

5

© 2020 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement

record to contradict Judge Hughes's statement that [the prosecutor] gave 'unequivocal, race neutral
explanations for each of his peremptory challenges' in the off the record conversation," the District
Court found that Judge Hughes had proceeded through a full, three-step Batson analysis at trial, albeit
only implicitly and largely off the record. Saunders v. Tennis, No. 09-1916, 2011 U.S. Dist. LEXIS
57328, 2011 WL 2117559, at *10, *13-14 (E.D. Pa. May 26, 2011). {2012 U.S. App. LEXIS
10}Therefore, although the District Court agreed with the Magistrate Judge that Judge Hughes had
"incorrectly interpreted Batson at trial" and in her post-trial opinion with respect to Saunders's prima
facie burden, 2011 U.S. Dist. LEXIS 57328, [WL] at *11-12, the District Court applied the Antiterrorism
and Effective Death Penalty Act (AEDPA), 28 U.S.C. § 2254, and affirmed the state-court
determination that "Saunders did not meet his burden of showing that purposeful racial discrimination,
and not the proffered explanations], actually motivated the prosecutor's conduct," 2011 U.S. Dist.
LEXIS 57328, [WL] at *15. Nevertheless, the District Court also conducted a thorough de novo
analysis of the plausibility of the prosecutor's race-neutral justifications, ultimately reaching the same
conclusion as the Magistrate Judge: "[WJhile the pattern of strikes and other statistical evidence was
sufficient to meet Saunders's[] burden at step one, Saunders has failed to meet his steps two and
three burden of persuasion to establish that the Commonwealth exercised its peremptory strikes
based on discriminatory motivation." 2011 U.S. Dist. LEXIS 57328, [WL] at *16-17.
The District Court granted a certificate of appealability on Saunders's Batson claim-specifically as to
the degree of deference {2012 U.S. App. LEXIS 11}owed to Judge Hughes's § 2245 certificate and
whether the prosecutor "exercised [his] peremptory strikes in a racially discriminatory manner in
violation of Batson" (App. 3)-and Saunders timely appealed. 2
{483 Fed. Appx. 743} II
We exercise plenary review over the District Court's denial of habeas corpus, and we review its factual
findings for clear error. United States v. Lilly, 536 F.3d 190, 195 (3d Cir. 2008). Under AEDPA, 28
U.S.C. § 2254(d), we may not grant Saunders habeas relief unless the state court's Batson ruling was
"contrary to or an unreasonable application of clearly established Supreme Court law, or. . . involve[d]
an unreasonable determination of the facts." Bond v. Beard, 539 F.3d 256, 263 (3d Cir. 2008) (citing
28 U.S.C. §2254(d)(1)-(2)).
A
It is well-established under Batson that "the Fourteenth Amendment's Equal Protection Clause
prohibits a prosecutor from using a peremptory challenge to strike a prospective juror solely on
account of race." Holloway, 355 F.3d at 719 (citing Batson, 476 U.S. at 88). The Batson analysis
proceeds in three steps:
First, {2012 U.S. App. LEXIS 12}the trial court must determine whether the defendant has made
a prima facie showing that the prosecutor exercised a peremptory challenge on the basis of race.
Second, if the showing is made, the burden shifts to the prosecutor to present a race-neutral
explanation for striking the juror in question. Although the prosecutor must present a
comprehensible reason, "[tjhe second step of this process does not demand an explanation that
is persuasive, or even plausible"; so long as the reason is not inherently discriminatory, it suffices.
Third, the court must then determine whether the defendant has carried his burden of proving
purposeful discrimination. This final step involves evaluating "the persuasiveness of the
justification" proffered by the prosecutor, but "the ultimate burden of persuasion regarding racial
motivation rests with, and never shifts from, the opponent of the strike."Rice v. Collins, 546 U.S.
333, 338, 126 S. Ct. 969, 163 L. Ed. 2d 824 (2006) (citations omitted) (quoting Purkett v. Bern,
514 U.S. 765, 767-68, 115 S. Ct. 1769, 131 L. Ed. 2d 834 (1995) (per curiam)); accord Miller-El v.
Dretke, 545 U.S. 231, 251-52, 125 S. Ct. 2317, 162 L. Ed. 2d 196 (2005). At the third step,

03CASES

6

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

"something more than a 'terse,' 'abrupt' comment that the prosecutor has satisfied Batson" is
required. {2012 U.S. App. LEXIS 13}Riley v. Taylor, 277 F.3d 261, 289 (3d Cir. 2001) (citations
omitted).
Saunders argues-and both the Magistrate Judge and the District Court found- that the state court's
step-one determination that Saunders failed to demonstrate a prima facie case was contrary to
Batson. We agree. First, the state court unreasonably applied Batson when it rejected Saunders's
objection on the basis that four African-American women had been selected for the jury, making
African-American women the best-represented demographic on the panel. Batson makes clear that
"the State's privilege to strike individual jurors through peremptory challenges" is restricted by the
Equal Protection Clause. Batson, 476 U.S. at 89 (emphasis added). Accordingly, "a prosecutor's
purposeful discrimination in excluding even a single juror on account of race cannot be tolerated . . .
[and] a prosecutor. . . can find no refuge in having accepted other[] venirepersons of that race for the
jury." Holloway, 355 F.3d at 720. Second, the prosecutor's pattern of striking eight African-American
women in a row, thus using all of his strikes exercised at that point to remove African-American
women, was clearly sufficient to satisfy Saunders's (2012 U.S. App. LEXIS 14)step-one burden. See,
e.g., Batson, 476 U.S. at 97 (noting that a pattern of strikes{483 Fed. Appx. 744} against black jurors
can create an inference of discrimination); Williams v. Beard, 637 F.3d 195, 215 (3d Cir. 2011) (use of
85% of peremptory strikes to eliminate African-Americans was sufficient); Brinson v. Vaughn, 398
F.3d 225, 235 (3d Cir. 2005) (use of thirteen out of fourteen strikes against African-American jurors
was "alone sufficient to establish a prima facie case"); see also Williams, 637 F.3d at 214 (noting that
step one "is not intended to be particularly onerous").
Because we conclude that Saunders satisfied his step-one burden by objecting on the basis of the
prosecutor's use of eight out of eight strikes against African-American women, it would have been
"contrary to" or an "unreasonable application of Batson for the state court to end its inquiry there.
Bond, 539 F.3d at 264; Hardcastle v. Horn, 368 F.3d 246, 259 (3d Cir. 2004). The parties dispute
whether that occurred, however, and the Magistrate Judge and the District Court likewise disagree. 3
Relatedly, the parties dispute the degree of deference owed to Judge Hughes's § 2245 certificate,
which could inform the factual determination {2012 U.S. App. LEXIS 15}of whether she ruled on
Saunders's Batson claim at step one or proceeded to steps two and three. Indeed, the District Court
found that the Magistrate Judge did not sufficiently defer to the certificate. 4 If the state court failed to
conduct either step two or three, "we would not apply AEDPA deference" to its Batson ruling and
"would review the issue de novo." Bond, 539 F.3d at 264. The Commonwealth also contends that the
evidentiary hearing was improper under both Cullen v. Pinholster, 563 U.S. 170, 131 S. Ct. 1388, 179
L. Ed. 2d 557 (2011), and § 2254(e)(2). If we concluded that the prosecutor never offered race-neutral
justifications at step two or that the state court never conducted a step-three analysis, an "evidentiary
hearing at which the prosecutor might rely upon his recollection of the voir dire and make reference to
his trial notes would seem warranted." Holloway, 355 F.3d at 725; accord, e.g., Coombs v.
Diguglielmo, 616 F.3d 255, 263 (3d Cir. 2010); Brinson, 398 F.3d at 235 (remanding for an evidentiary
hearing and de novo review where the state court's failure to proceed to step two was contrary to
Batson). The propriety of the evidentiary hearing would further depend on whether Saunders diligently
{2012 U.S. App. LEXIS 16}sought to amplify the Bafson-challenge record in state court. See 28
U.S.C. § 2254(e)(2).
These disputed issues raise difficult questions best left for another day because{483 Fed. Appx. 745}
they are not outcome-determinative here. Even if we grant Saunders every benefit of the doubt-i.e.,
(1) by assuming that the federal evidentiary hearing was properly held; (2) by declining to afford
AEDPA deference; and (3) by accepting Saunders' argument that no deference is owed to Judge
Hughes's certificate-we agree fully with the District Court that Saunders's Batson claim fails at step

03CASES

7

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew' Bender Master Agreement.

three. For the reasons set forth in the District Court's de novo analysis, Saunders, 2011 U.S. Dist.
LEXIS 57328, 2011 WL 2117559, at *16-17, Saunders has not satisfied his burden of showing
purposeful discrimination in the prosecutor's peremptory strikes because he has not discredited the
prosecutor's race-neutral reasons or further demonstrated discriminatory motive. Cf., e g., Miller-El,
545 U.S. at 240-63 {2012 U.S. App. LEXIS 18}(describing ways in which Batson objectors may show
that the opponent's race-neutral explanations are pretextual or implausible). Therefore, we will affirm
the District Court's judgment denying Saunders's petition for writ of habeas corpus.
Footnotes

1
Judge Hughes's assertion in her § 2245 certificate that only eight jurors had been chosen for the final
panel at the time of Saunders's Batson objection contradicts the trial record, which shows that ten
jurors had been seated at that time. (See App. 171.)
2
The District Court had jurisdiction pursuant to 28 U.S.C. §§ 2241 and 2254, and we have jurisdiction
under 28 U.S.C. §§ 1291 and 2253(a).
3
Our precedents confirm the difficulty of gleaning from ambiguous state trial court rulings which Batson
steps were performed. See Bond, 539 F.3d at 268 (finding that the state trial court's post-trial
explanation of its Batson ruling showed it conducted a step-three analysis, curing its "inartful[]"
statements at trial suggesting that it stopped at step two); Hardcastle, 368 F.3d at 256 (noting that the
Pennsylvania Supreme Court first conflated steps one and two and then "proceeded to step three,
only to conclude that Hardcastle had failed to establish a prima facie case of discrimination, thus
indicating that, technically speaking, its analysis never proceeded beyond step one").
4
The degree of deference owed to a state judge's § 2245 certificate is an open question. See Weidner
v. Thieret, 932 F.2d 626, 633 (7th Cir. 1991) ("Where state trial judges fail to adequately develop the
relevant facts so that not even implicit findings can be gleaned from the record, the habeas procedure
is better served by a de novo hearing than by allowing state judges to cast their minds back to the
state trial." {2012 U.S. App. LEXIS 17}(citation omitted)); Wang v. Withworth, 811 F.2d 952, 956-57
(6th Cir. 1987) (rejecting a judge's certificate asserting that he granted a mistrial where the trial record
plainly showed he found a lack of sufficient evidence to convict); Strader v. Troy, 571 F.2d 1263, 1267
(4th Cir. 1978) (rejecting a trial judge's certificate on the basis that it was "equivocal").

03CASES

8

© 2020 Matthew Bender & Company, tnc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

